  DOT’S IMPLEMENTATION OF THE AMERICAN
                RECOVERY
          AND REINVESTMENT ACT:
CONTINUED MANAGEMENT ATTENTION IS NEEDED
  TO ADDRESS OVERSIGHT VULNERABILITIES
        Department of Transportation


        Report Number: MH-2010-024
       Date Issued: November 30, 2009
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT’s Implementation of the                        Date:    November 30, 2009
           American Recovery and Reinvestment Act:
           Continued Management Attention Is Needed To
           Address Oversight Vulnerabilities
           Department of Transportation
           Report Number MH-2010-024
  From:    Calvin L. Scovel III                                    Reply to
                                                                   Attn. of:   J-1
           Inspector General
    To:    The Secretary
           Deputy Secretary

           This report presents the results of our assessment of the Department of
           Transportation’s (DOT) implementation of the American Recovery and
           Reinvestment Act (ARRA) of 2009, which designated over $48 billion for new
           and existing DOT programs. Both the President and Congress have emphasized
           the need for full accountability, efficiency, and transparency in the allocation and
           expenditure of ARRA funds and recognized the importance of the accountability
           community in accomplishing these objectives. The Office of Inspector General’s
           (OIG) role is to assist DOT officials in their efforts to implement ARRA by
           identifying areas that need strengthening and making recommendations for
           program improvements.

           Since ARRA’s passage earlier this year, DOT has been tackling the difficult work
           associated with administering a large infusion of funding and the addition of new
           program requirements. We recognize the commitment of the Secretary of
           Transportation and his staff to the success of DOT’s recovery initiatives. DOT has
           been proactive on several fronts, including establishing the Transportation
           Investment Generating Economic Recovery (TIGER) team to coordinate DOT’s
           role in the recovery program, ensure accountability, and develop a risk
           management and financial reporting plan.          Additionally, some Operating
           Administrations have taken proactive steps to address key ARRA challenges, such
           as the Federal Highway Administration’s (FHWA) comprehensive workforce
           analysis to determine ARRA staffing needs across the agency. However, as we
           reported in March 2009, DOT faces significant challenges in ensuring that its
                                                                                                             2


grantees properly spend ARRA funds; implementing extensive new reporting
requirements and over $9 billion in new programs; and combating fraud, waste,
and abuse. 1 In response to our March 2009 report on ARRA oversight challenges,
the TIGER team developed a plan outlining initiatives that were planned or under
way within each Operating Administration that received ARRA funding.
ARRA has now been in effect for over 9 months and the Department’s obligation
deadlines to date have been met. For this report, our objective was to identify
vulnerabilities that could impede DOT’s ability to (1) provide effective oversight
to ARRA-funded projects and (2) meet new requirements mandated by ARRA and
the Office of Management and Budget (OMB). To meet our objective, we
conducted systematic surveys, or scans, of the DOT agencies 2 that received ARRA
funding, as shown in table 1; and this report presents a snapshot of DOT’s efforts
as of the end of September 2009. We identified vulnerabilities related to project
selection for existing programs, project and contract oversight for existing
programs, new programs created by ARRA, and new reporting requirements
mandated by ARRA. During our agency scans, we also assessed DOT’s progress
in carrying out the initiatives developed in response to our March 2009 report. In
conducting this assessment, we recognized DOT’s continued effort to implement
ARRA in a fast-moving environment and under tight statutory deadlines. Thus,
we provided ongoing feedback to the DOT agencies to initiate timely corrective
action.

                 Table 1. Distribution of ARRA Funds Within DOT

                                                        Stimulus Funds
    DOT Component                                          (millions)                Percent of Total*

    Federal Highway Administration                          $27,500                      57.15%
    Federal Railroad Administration                          $9,300                      19.33%
    Federal Transit Administration                           $8,400                      17.46%
    Office of the Secretary of Transportation                $1,500                        3.12%
    Federal Aviation Administration                          $1,300                        2.70%
    Maritime Administration                                    $100                        0.21%

    Office of Inspector General                                  $20                       0.04%

    Total                                                   $48,120                      100.00%
    Source: ARRA.
    * Percentages do not add up due to rounding.

1
     OIG Report Number MH-2009-046, “American Recovery and Reinvestment Act of 2009: Oversight Challenges
     Facing the Department of Transportation,” March 31, 2009. OIG reports and testimonies are available on our
     website: www.oig.dot.gov.
2
     The OIG was not included.
                                                                                 3


Exhibit A presents our scope and methodology. Exhibit B provides information
on ARRA allocation and expenditure deadlines. Exhibit C describes the role and
responsibilities of the DOT-wide TIGER team and its sub-teams. Exhibit D
describes common fraud schemes and indicators of fraud. Exhibit E provides a list
of related reports, testimonies, and ARRA Advisories we have issued to date,
along with a list of ongoing audits related to ARRA.

EXECUTIVE SUMMARY
Our agency scans showed that DOT took unprecedented steps to enhance
oversight and create new programs in a short period. For example, FHWA
developed national review teams to help oversee the $27.5 billion it received in
ARRA funding and ensure a consistent approach to conducting compliance
reviews across its 52 Division Offices, although it is too early to measure their
effectiveness. Further, the Office of the Secretary of Transportation (OST)
developed an agencywide program to identify key risks in effectively
implementing ARRA and develop strategies to mitigate risks.

While proactive steps like these laid the groundwork for addressing its significant
oversight challenges, DOT faces vulnerabilities that could inhibit its ability to
meet ARRA’s goals and requirements going forward. Specifically, our agency
scans identified two types of vulnerabilities, as shown in table 2:

   (1) those that require action to mitigate a documented risk or tasks that should
       be finalized as soon as possible and

   (2) those that, because of their complexity, size, or scope, require a sustained
       focus, although no deficiencies may be evident now.
                                                                                                  4




                  Table 2. ARRA Vulnerabilities Facing DOT

         Vulnerability                Action Required Now         Sustained Focus Required
                                   To mitigate a documented        To address a management
                                   risk or tasks that should be      challenge, although no
                                 finalized as soon as possible    deficiencies are evident now
Project selection for existing   FAA (Airport Improvement         FHWA (highway formula
programs                         Program)                         grant program),
                                                                  FTA (transit formula grants
                                                                  programs)
Project and contract oversight   FAA (Facilities and              FHWA (staffing at state
for existing programs            Equipment Program staffing       departments of
                                 and contracts),                  transportation, highway
                                 FRA (staffing),                  project oversight, and follow
                                 FTA (staffing),                  through with National
                                 MARAD (staffing, Small           Review Teams and Indian
                                 Shipyards Grant Program          Reservation Roads
                                 oversight),                      Program),
                                 DOT-wide (suspension and         FTA (transit project
                                 debarment)                       oversight),
                                                                  OST (risk management
                                                                  process),
                                                                  DOT-wide (fraud)
New programs created by          FRA (High-Speed Rail             Not applicable
ARRA                             Program),
                                 OST (TIGER Discretionary
                                 Grants Program)
New reporting requirements       Not applicable                   DOT-wide
mandated by ARRA

Some Project Selection Decisions May Not Address ARRA or
Program Requirements
We identified vulnerabilities in some Operating Administration programs’ grant
evaluation and selection processes, particularly at the Federal Aviation
Administration (FAA) and the Maritime Administration (MARAD). While
DOT’s role in evaluating and selecting projects varies across the existing
programs funded by ARRA—ranging from complete discretionary authority in
FAA’s Airport Improvement Program (AIP) to extensive state and local flexibility
in selecting projects under FHWA’s and the Federal Transit Administration’s
(FTA) formula grant programs—certain principles apply to all ARRA-funded
grant programs. Specifically, DOT is expected to meet existing requirements and
new requirements mandated by ARRA; achieve economic recovery program
goals, such as maximizing job creation and producing long-term economic
benefits; adhere to standing program requirements for approving projects; ensure
                                                                                                                      5


“prudent” investment decisions; and demonstrate sufficient transparency in
decisionmaking. 3

    • For existing discretionary programs, we found instances in which DOT
      agencies have fallen short of meeting some key requirements and ensuring
      sufficient transparency in decisionmaking. FAA awarded more than 50
      AIP grants for projects scoring below its established threshold for high
      priority ARRA projects. 4 These awards raise concerns about whether the
      agency’s process resulted in funding the highest priority projects that will
      result in long-term economic benefits. In another example, MARAD’s
      Small Shipyards Grant Program was subjected to further DOT review and
      evaluation after the Secretary determined that the process used to evaluate
      the grant applications was incomplete. Although the small shipyard grants
      were awarded, as required by ARRA, in August 2009, the Secretary’s
      intervention raised concerns about MARAD’s evaluation and selection
      process. Should the program receive more funding in the future, clearly
      written criteria and procedures to guide the selection process could help
      ensure that the most-deserving projects will be selected.

    • For the highway and transit formula grant programs that received billions in
      ARRA funds, we identified no deficiencies in the grant award processes at
      this time. However, oversight of state and local project planning requires
      sustained FHWA and FTA attention to avoid imprudent spending. To
      obtain funding for selected projects, states and local governments must
      develop a comprehensive plan—through statewide transportation
      improvement programs (STIPs) and local transportation improvement
      programs (TIPs) for state and local projects, respectively 5—that identifies
      proposed transportation projects, time frames for completing the projects,
      and realistic funding sources. Our review of select division and regional
      offices showed that FHWA and FTA were reviewing recent changes to
      STIPs and TIPs. However, FHWA and FTA still face a key management
      challenge in reviewing STIP and TIP changes and making sure grantees
      adhere to Federal requirements in their project selections.

3
    A March 2009 presidential memorandum directed agency heads to refrain from approving “any project that is
    imprudent or that does not further job creation, economic recovery, and other purposes of the Act.” OMB
    guidance states that agencies should structure grants to result in meaningful, measurable outcomes that advance
    ARRA’s goals, such as jobs creation and preservation, and promote accountability and transparency.
4
    In response to our Advisory, FAA stated that it “carefully ensured that each grant issued using Recovery Act
    funding fully complied with applicable statutory requirements.” We disagree, since FAA established no criterion
    for and did not consider long-term economic benefit in making its project selections, as required by ARRA.
5
    STIPs lay out how states intend to use taxpayers’ and other money to meet their transportation needs. They also
    identify which projects will be funded and the cost and funding sources for those projects. A TIP documents
    projects for a particular urbanized area and is included in the STIP. DOT requires that STIPs be fiscally realistic
    (“constrained”) and present truthful and credible information. Having a realistic STIP is critical for transportation
    and budget planning purposes.
                                                                                  6


A Number of Factors Could Inhibit DOT’s Oversight of ARRA
Spending
DOT has taken several steps to enhance oversight of ARRA spending. For
example, DOT created a new risk management tool to comply with OMB’s
requirement to conduct risk assessments for ARRA-funded programs; and FHWA
went a step further by directing its Division Offices to identify ARRA-related risks
at the state level and standing up national review teams to evaluate Division
Offices’ risk-based oversight efforts. However, DOT is still vulnerable because
oversight tools such as these require consistent long-term focus. Other DOT
vulnerabilities relate to addressing workforce planning and increasing staffing
levels to meet the new ARRA demands, overseeing some program grants and
contracts that received ARRA funding, carrying out the Departmentwide risk
management process that was initiated to comply with OMB requirements, and
maintaining robust counter-fraud programs.

   • DOT has not ensured all its Operating Administrations have adequate
     workforce plans and some Operating Administrations have yet to hire staff
     with the expertise needed to provide enhanced oversight as called for in
     OMB’s guidance. For example, while FHWA developed a comprehensive
     plan identifying staffing needs through 2012, MARAD lacks such a plan,
     despite a substantial increase in funding and workload. Additionally, some
     Operating Administrations acknowledged that the tight deadlines and
     increased workload have already negatively affected their ability to staff
     other programs. For example, officials at FTA’s New York Regional
     Office—which typically administers more funds than other FTA field
     offices—stated that they were behind on non-ARRA work this summer
     because they redeployed staff to meet ARRA deadlines. To further
     complicate the situation, some projects selected through the STIP and TIP
     process could require enhanced Federal oversight at a time when agencies’
     resources are struggling to meet new demands. For example, the Fulton
     Street Transit Center in New York City may receive as much as $424
     million in ARRA funds to administer on top of coping with the significant
     schedule delays and cost increases it has already experienced.

   • To mitigate the risk of inefficient or imprudent expenditure of ARRA
     dollars, OMB directed agencies to take steps, beyond standard practice, to
     enhance oversight of ARRA grant programs and contracts. Enhanced
     oversight mechanisms have been established for some DOT programs; but
     ARRA still poses ongoing management challenges that will require
     sustained focus. For example, to oversee the $27.5 billion it received in
     ARRA funding, FHWA developed national review teams. However,
     FHWA’s management challenge is to make sure these teams have a
                                                                                                                      7


         consistent approach to conducting compliance reviews across its 52
         Division Offices and promote vigilant oversight of recovery projects. In
         the past, ensuring that its widely dispersed staff provided sufficient
         oversight to grantees had been a challenge for FHWA. Some agencies,
         such as MARAD, still may not be providing this enhanced level of
         oversight for their ARRA-funded programs. For example, MARAD did not
         establish written policies and procedures for monitoring its small shipyard
         grants or commit to conducting pre-closeout site visits to grant recipients.

    • DOT has taken proactive steps to identify oversight-related risks on ARRA-
      funded programs, and has taken action beyond existing risk management
      programs, such as its internal control efforts that are required by OMB
      Circular A-123. Specifically, DOT initiated a four-stage review of risks
      related to the implementation of ARRA. 6 OST has not assessed the
      resources it needs to effectively oversee the Operating Administrations’
      implementation of their risk plans and adding resources could enhance the
      effectiveness of this new oversight tool. Our July 2009 review of risk
      mitigation strategy documents at FAA, FHWA, the Federal Railroad
      Administration (FRA), and FTA identified shortcomings, such as missing
      target completion dates for mitigating identified risks. MARAD and OST
      had just completed their risk strategy documentation at the time of our
      review. In September 2009, OST officials stated that the Operating
      Administrations had completed their risk mitigation strategies, although we
      have not analyzed these documents to determine whether our earlier
      concerns had been addressed.

    • DOT’s Operating Administrations are taking action to combat fraud; but
      continued outreach is needed to enhance understanding among DOT staff,
      grantees, and their contractors on how to detect, prevent, and report
      potential fraud. Efforts to date range from a week-long “Grants A to Z”
      seminar at FTA, to a lack of a systematic fraud prevention strategy at
      MARAD. An effective strategy centers on deterring fraud schemes that
      could occur on projects receiving recovery funding, such as bid-rigging,
      false claims for materials and labor, and product substitution through
      mismarking or mislabeling products and materials. A key element of this
      strategy is increased awareness of certain “red flags” that could indicate the
      presence of one or more fraud schemes on an ARRA-funded project. In
      addition, making timely suspension and debarment decisions and reporting
      them promptly is important in reducing the risk that firms or individuals

6
    The stages were (1) identifying internal control gaps using a risk assessment questionnaire for seven functional
    capabilities critical to the efficient operation of Operating Administrations, (2) developing a risk profile for five
    internal control focus areas, (3) describing risk mitigating procedures and/or strategies, and (4) testing and
    validating all submitted mitigation efforts and cited internal controls.
                                                                                 8


      who have defrauded the Federal Government, or are otherwise known to be
      irresponsible, could get ARRA contracts.

DOT Faces Significant Management and Resource Obstacles To
Effectively Implement Over $9 Billion in New ARRA Programs
In addition to increasing funding for existing DOT programs, ARRA created new
discretionary grant programs, including $8 billion to jumpstart the creation of
high-speed rail corridors and intercity passenger rail service (under FRA) and
$1.5 billion for surface transportation infrastructure projects (under OST). In
starting up these large, high visibility programs, DOT faces significant
vulnerabilities, such as unclear selection processes, undetermined oversight
strategies, and insufficient resources.

   • The High-Speed Rail Program represents a major transformation for FRA.
     It may not be prepared to ensure the long-term success of the new high-
     speed rail program as it moves from a relatively small agency focused on
     rail safety, to a grant-making agency responsible for billions of dollars.
     While FRA officials recognize the challenge before them, our evaluation of
     the agency’s efforts to date raises significant concerns about its ability to
     handle these new responsibilities. FRA planned to begin awarding its first
     round of grants in fall 2009. However, following receipt of our draft report
     that discussed the risks associated with trying to award the grants that early
     given its current technical capacity, FRA decided to delay the awards until
     the second quarter of FY 2010. FRA attributed this delay, in part, to not
     having finalized or fully documented its program implementation strategy;
     nor has it acquired sufficient staff and technical capacity to effectively
     manage the program. To address these vulnerabilities in the short term, and
     to quickly acquire the technical expertise it needed, FRA used detailees
     from FTA and contractors from DOT’s Research and Innovative
     Technology Administration (RITA). In addition, the program’s grant
     application and selection process is not well-defined. For example, FRA
     has not fully determined how it will evaluate the accuracy of applicants’
     rider and revenue forecasts—a key aspect of how proposed projects’ merit
     and feasibility will be determined.

   • OST has not finalized its role in the post-award TIGER Discretionary
     Grants process and has not thoroughly assessed what additional grant
     oversight resources or expertise it will need to effectively administer the
     program once grants are awarded by February 2010. To help oversee
     TIGER grants, OST plans to partner with the Operating Administration
     related to the type of project selected. However, to make these partnerships
     work, comprehensive up-front planning is needed to document
                                                                                                                        9


           expectations, define roles and responsibilities, and put in place
           accountability measures to hold all parties responsible for effective grant
           administration and oversight.

DOT Is Working To Address ARRA Reporting Requirements, But Has
Not Completed Key Tasks
ARRA mandated extensive new reporting requirements, which OMB detailed in a
series of implementation guidance documents. 7 These reporting requirements
include detailed information on project expenditures, project status and
performance reports, and job creation updates. However, certain vulnerabilities
could inhibit DOT’s ability to provide accurate and reliable data to decisionmakers
and the public.

      • Operating Administrations have taken actions to ensure that ARRA
        recipients comply with reporting requirements. OMB guidance requires
        agencies, such as DOT, to provide some degree of review to ensure that
        ARRA recipients report accurate ARRA project data. The actions taken
        ranged from conducting outreach to recipients regarding reporting
        requirements and developing processes to perform data quality reviews.
        Each Operating Administration aims to have a process in place before
        conducting the reviews and, at the time of our audit, two of the five
        Operating Administrations, FAA and FTA, had documented processes,
        while FHWA, FRA, and MARAD were still developing their processes.
        However, it is too early to determine whether these processes will
        adequately identify omissions and significant reporting errors. 8

      • OMB provided general guidance to agencies on how to obtain and report
        job creation data for ARRA projects; but DOT’s plans for estimating and
        reporting such jobs raise concerns. For example, OST has requested, but
        not provided guidance through the Bureau of Transportation Statistics on
        how the Operating Administrations should assess the reliability of job
        creation data provided by recipients. In addition, OST’s methodology for
        estimating the number of indirect jobs created by ARRA projects is
        inconsistent with the Council of Economic Advisors recommended
        methodology for estimating total employment. Further, OST intends to
        report new indirect and total jobs on the date recipients are reimbursed for

7
    Section 1512 of ARRA requires recipients to report on the total amount of ARRA funds received from a Federal
    agency—the amounts spent on projects and activities; a list of projects and activities funded by name, including a
    description and completion status; estimates of the number of jobs created or retained by those projects or activities;
    and details on sub-awards and other payments. Section 1201 of ARRA requires grant recipients to submit periodic
    reports on their use of ARRA funds, which are to be collected and compiled by their respective Federal agencies and
    transmitted to Congress. Required information includes amount of funds received, number of projects initiated and
    completed, and number of jobs created or sustained.
8
    Much of the data will eventually be reported on www.recovery.gov.
                                                                                  10


       expenditures, which could result in a significant lag between when new
       jobs are actually created and when they are reported. Given the ambiguity
       these weaknesses create in OST’s estimates, the validity of DOT’s job
       creation estimates, particularly its estimates of indirect jobs and the timing
       of job creation, could be questioned.

To ensure that DOT provides effective oversight of projects being constructed
with ARRA dollars and that remaining ARRA funds are prudently invested, we
are recommending that the Department provide us with a plan to address
vulnerabilities in the areas where action is needed. The plan should address
DOT’s actions taken or underway for finalizing comprehensive workforce plans
for all Operating Administrations, monitoring ARRA risk strategies, addressing
risks related to the quality of data being reported to the public on program results,
and determining effective oversight strategies for the high-speed rail and TIGER
grants programs. Our complete recommendations can be found on pages 32 and
33. We will continue our ARRA-related audit and investigative work by drilling
down on high-risk areas that emerged during our scan. In commenting on a draft
of this report, the Department concurred with our recommendation and promised
to provide us with a plan within 30 days after the issuance of our final report.



BACKGROUND
Since ARRA was signed into law, Congress and the President have repeatedly
stressed the need to ensure that ARRA funds are prudently invested with an
unprecedented level of transparency and accountability. Although DOT’s
programs vary widely in their structure and requirements, all ARRA-funded
programs are subject to OMB’s implementation guidance, which lays out five key
accountability objectives that agencies should focus on during ARRA planning
and implementation: (1) award and distribute funds in a prompt, fair, and
reasonable manner; (2) ensure the recipients and uses of the funds are transparent
to the public, and the resulting benefits are reported clearly, accurately, and
promptly; (3) ensure funds are used for authorized purposes and mitigate instances
of fraud, waste, and abuse; (4) avoid unnecessary project delays and cost overruns;
and (5) achieve specific program outcomes and improve results on economic
indicators. Furthermore, the President has reiterated the administration’s goal of
responsible and transparent expenditure of ARRA funds, specifying the need for
agencies to focus on ensuring that grants are selected on merit-based
decisionmaking processes and avoid funding imprudent projects.

In our March 2009 report, based on our analysis of ongoing and prior audit work
and observations of DOT’s efforts to implement ARRA, we identified three key
                                                                                              11


challenges and related focus areas facing DOT. The challenges and 10 focus areas
associated with them are shown in table 3.



Table 3. Major ARRA Challenges and Related Focus Areas for DOT

Ensuring that DOT’s grantees properly spend ARRA funds
•   Acquire sufficient personnel with relevant expertise to oversee grantees.
•   Adhere to existing Federal requirements for programs funded under ARRA.
•   Evaluate the credibility and completeness of cost and schedule estimates.
•   Oversee grantees’ contracting management activities and ensure selection of appropriate
    contract types.
•   Address internal control weaknesses and identify unused funds for use elsewhere.

Implementing new accountability requirements and programs mandated by ARRA
•   Implement new ARRA tracking and reporting requirements that are designed to promote
    accountability and transparency.
•   Develop comprehensive plans and sound criteria for the new discretionary grant and
    passenger rail programs within statutory deadlines.
•   Develop appropriate oversight strategies for the new discretionary grant and passenger rail
    programs.

Combating fraud, waste, and abuse
•   Enhance understanding among DOT staff, grantees, and their contractors on how to
    recognize, prevent, and report potential fraud to the appropriate authorities.
•   Take timely and effective action to suspend and/or debar individuals or firms that have
    defrauded the Department, or are otherwise known to be irresponsible, so they do not
    receive Federal contracts in the future.



To ensure sufficient consideration of the potential risks discussed in our March
2009 report, we recommended that the Secretary of Transportation, through the
DOT TIGER team, develop an oversight implementation plan that outlines the key
actions DOT has underway or will take to address these issues. DOT’s response
noted its commitment to effective stewardship and contained a number of
initiatives in each Operating Administration to address our report’s 10 focus areas.
Each Operating Administration’s initiatives varied widely in their rigor and level
of detail. For example, FHWA’s response was detailed and highlighted several
key action items, such as its risk management program and the establishment of
national review teams. In contrast, FRA’s and MARAD’s responses lacked detail
and did not include specific action items with target completion dates. As part of
our agency scans, we assessed items that were contained in this plan.
                                                                                                                    12


FINDINGS

SOME PROJECT SELECTION DECISIONS MAY NOT ADDRESS
ARRA OR PROGRAM REQUIREMENTS
Some Operating Administrations’ project evaluation and selection processes did
not sufficiently take into account new ARRA requirements or may be at risk of not
fully promoting economic recovery. In some cases, the Operating Administrations
had difficulties reconciling their existing program requirements with new ARRA
requirements. OMB guidance requires agencies to structure all ARRA grants so
they result in meaningful and measurable outcomes that advance ARRA’s goals.
For discretionary programs, we found vulnerabilities in two Operating
Administrations that received discretionary recovery funding, which impacted
their ability to meet existing program requirements or new requirements mandated
by ARRA and OMB. For formula grant programs, FHWA and FTA face
challenges in ensuring recipients adhere to ARRA’s goals and meet Federal
planning requirements for obtaining funding for highway and transit projects.

Grant Selection and Approval Processes for Some Discretionary
Programs Did Not Fully Adhere to ARRA Requirements or May Not
Fully Promote Economic Recovery Goals
The grant selection and approval processes for some programs at FAA and
MARAD did not fully adhere to ARRA requirements and recovery program goals,
creating vulnerabilities that some projects may not achieve meaningful and
measurable outcomes, provide long-term economic benefit, and promote
accountability and transparency.

FAA’s processes for awarding and overseeing ARRA grants for airport
improvement projects do not fully comply with the ARRA requirements calling
for transparency, merit-based selections, and effective administration of funds.
First, FAA’s process for approving ARRA airport projects, based primarily on its
existing National Priority Rating (NPR) system, 9 does not include a criterion for
considering economic merit. Accordingly, the projects FAA selected may not
provide long-term economic benefits. Moreover, while FAA established a
threshold NPR score to prioritize projects, and stated its preference for higher
priority projects, the Agency still awarded more than 50 grants for low scoring
projects. The combination of not considering economic merit and making awards
to lower scoring projects raises questions as to whether many of FAA’s project
selections fully met ARRA requirements. For instance, we identified five projects
of questionable economic merit; yet, each received approval for ARRA funding.
9
    FAA’s NPR system rates the value of airport projects on a scale of 0 to 100 by considering safety, security, capacity
    enhancement, and environmental mitigation factors.
                                                                                                                      13


For example, FAA awarded $13.9 million for a replacement airport in Akiachak,
Alaska, a village of about 659 people, even though this project had a low NPR
score. 10

Second, at least four FAA recipients have histories of grant management
problems, yet FAA rated each as “nominal risk,” raising doubts about the agency’s
ability to provide sufficient oversight to ensure ARRA funds are effectively
administered. These four grantees—Guam International Airport Authority;
Owensboro-Daviess County, Kentucky; Pitkin County, Colorado; and Puerto Rico
Port Authority—collectively received about $15 million in ARRA grants, although
auditors identified longstanding problems in such areas as cash management,
procurement and suspensions and debarments, and allowable costs. For example,
Kentucky’s Owensboro-Daviess County received a $658,730 ARRA grant, despite
reports citing poor administration of AIP funds for 10 of the last 11 years.

To address these concerns, we proposed in a recent ARRA Advisory 11 that FAA
fully reconcile its guidance with ARRA requirements and establish a selection
process that considers economic merit and is transparent. Until FAA can
demonstrate economic merit, it should not award additional grants for lower
ranked NPR projects. For those ARRA grants already awarded for lower ranked
projects with no funds expended, FAA needs to show economic merit or consider
withdrawing the grant. Finally, FAA needs to enhance its risk-based approach to
ensure new ARRA recipients that historically have not administered AIP funds
effectively receive increased oversight. In response to our ARRA Advisory, FAA
stated it believed each of the five low scoring NPR projects we identified was
qualified to receive an ARRA grant. However, FAA did agree to review the cases
of Guam, Owensboro, Pitkin County, and Puerto Rico to determine if those
airports should receive increased FAA grant oversight.

MARAD’s initial grant selection and approval process did not meet specific
ARRA requirements related to transparency in decisionmaking and the existing
statutory requirement to consider the economic conditions of the communities
where grant applicants were located. First, MARAD did not provide potential
applicants with detailed eligibility information when it solicited applications for its
Small Shipyards Grant Program, which received $100 million in ARRA funding.
According to MARAD’s interpretation of the President’s directive, certain types
of maritime businesses and projects were ineligible or considered poor candidates
for the prudent expenditure of ARRA funds. Reasons for ineligibility included
shipyards that build vessels less than 40 feet in length and marinas with limited

10
     Akiachak, which received an NPR score of 40, is within 14 miles of Bethel, Alaska’s fourth busiest airport. In recent
     years, Akiachak’s existing airport averaged 57 flights per week.
11
     OIG ARRA Advisory AA-2009-003, “ARRA Advisory—FAA’s Process for Awarding ARRA Airport Improvement
     Program Grants,” August 6, 2009.
                                                                                                                         14


ship repair or maintenance work, but MARAD did not communicate these criteria
to prospective applicants. Additionally, MARAD did not provide recipients with
objective metrics—such as the amount of dollar or labor savings a project was
expected to generate—that it planned to use to assess projects to address ARRA’s
economic and job creation requirements, and the program’s statutory goals.
Ultimately, of the 454 applications it received, MARAD rejected 198, or
44 percent, due to ineligibility or the lack of required technical or financial
information in an application.

Finally, after MARAD completed its selection process, the Secretary of
Transportation announced that the process MARAD used to evaluate applications
was incomplete. 12 The Secretary stated that he was instituting a process that
complied with the statutory instruction to consider the economic conditions of
communities with shipyards and ordered an additional review. Should this
program receive additional funding in the future, MARAD’s challenge will be to
develop guidelines that clearly spell out the criteria and evaluation process it will
use to determine the merit of future project applications.

Federal Review of Projects Selected Through the STIP and TIP
Process for Highway and Transit Formula Grant Programs Is Critical
To Ensure that ARRA Requirements Are Met
More than half of DOT’s ARRA funds were allotted to FHWA’s and FTA’s
formula grant programs for highway and transit projects, respectively. To obtain
Federal funds for such projects, states must satisfy Federal transportation planning
requirements in their STIPs and TIPs. 13 For example, states’ plans must
demonstrate that the public has had ample information on each proposed project
and that public comments have been considered. The plans must also include
sufficient financial information to demonstrate fiscal constraint; that is, the
projects can be completed using “committed, available, or reasonably available
revenue sources.” The planning process gives states and cities considerable
flexibility in determining which highway and transit projects to pursue, but DOT
plays an oversight role in ensuring that these projects meet Federal requirements.
The STIP and TIP process is the first opportunity for DOT to comment on
proposed highway and transit projects seeking ARRA dollars.




12
     On August 17, 2009, following the Secretary’s additional review, MARAD announced that it had selected ARRA-
     funded grant recipients for the Small Shipyards Grant Program. MARAD released the final list of 70 awards
     totaling $98 million.
13
     Working with Metropolitan Planning Organizations and local government agencies, each state periodically (at
     least every 4 years) develops a STIP that identifies all of the transportation projects that will be initiated during the
     period covered by the plan, and the sources of funding for those projects. A TIP is the plan for a particular
     urbanized area, while a STIP covers an entire state. A TIP is incorporated as part of a STIP.
                                                                                                          15


Our review of select division and regional offices showed that both agencies were
reviewing changes to STIPs and TIPs. 14 FHWA’s and FTA’s reviews of states’
plans have been accelerated, given ARRA’s focus on initiating projects as quickly
as possible. At the same time, reviews are more complex, in part because many
states have amended, and will continue to amend, their STIPs and TIPs to add
proposed ARRA projects. This process stresses the importance of DOT’s
oversight role in reviewing these changes, as hastily amended plans could result in
states or localities selecting imprudent projects or ones that do not meet recovery
program goals.

A NUMBER OF FACTORS COULD INHIBIT DOT’S OVERSIGHT
OF ARRA SPENDING
DOT faces oversight challenges in its ARRA programs related to staffing
demands, contract implementation, risk assessments and mitigation, and fraud
education and outreach. First, although OMB directed agencies to conduct
comprehensive workforce planning exercises, some Operating Administrations
lack or have yet to finalize comprehensive workforce plans that reflect the staffing
demands ARRA placed on them. Second, some activities associated with DOT
ARRA programs, such as FAA’s use of existing cost-plus-fixed-fee and award-fee
contracts, require an enhanced level of oversight. Further, MARAD’s lack of
written policies and procedures establishing internal controls for its Small
Shipyards Grant Program calls into question whether ARRA requirements for
enhanced levels of oversight will be met. Third, while it has been proactive in
some aspects of assessing risk, several vulnerabilities exist that could impede
DOT’s efforts to prudently spend its ARRA funds. Finally, DOT must make a
sustained, proactive effort to educate its grantees on fraud prevention and ensure
its Suspension and Debarment Program is timely in preventing contractors and
individuals who have defrauded the Government, or are otherwise known to be
irresponsible, from receiving ARRA contracts.

Some Operating Administrations Have Not Fully Addressed Staffing
Demands Posed by ARRA
The large increase in funding and tight time frames involved in the
implementation of ARRA have strained DOT’s resources, particularly the time
and attention of its field staff. To help agencies prepare for the added
responsibility of awarding ARRA funding, OMB directed agencies to assess the
gap between their current workforce and ARRA human capital requirements.
OMB’s implementation guidance requires agencies to identify mission-critical
human capital needs for ARRA implementation using competency-based

14
     We conducted field work at FHWA Division Offices in California, Maine, New York, Pennsylvania, and Texas.
     We conducted field work at FTA regional offices in Atlanta, Chicago, and New York.
                                                                                16


workforce planning methodologies. While FHWA did develop an agencywide
workforce plan, not all Operating Administrations have developed or implemented
such plans. Additionally, FAA did not sufficiently consider the effects that
meeting ARRA requirements might have on existing programs and obligations,
which agencies are expected to continue to fulfill. The significant increase in
DOT’s workload underscores the importance of finalizing and following through
on a comprehensive workforce plan.

FAA’s staffing demands have grown significantly, as ARRA increased AIP’s
funding by $1.1 billion—an addition of more than 31 percent over the program’s
$3.5 billion funding level in fiscal year (FY) 2009. To identify AIP workforce
needs, FAA informally surveyed its 9 regional and 18 Airport District Offices
(ADOs) that award and oversee grants. FAA’s survey identified a staffing gap of
six positions and the agency has since filled these positions. In addition, ARRA
increased FAA’s Air Traffic Organization (ATO) budget by $200 million for
facilities and equipment (F&E). However, ATO officials acknowledge the
organization does not have the personnel needed to manage its growing ARRA
and non-ARRA workload.             In 2008, before ARRA added additional
responsibilities, OMB expressed concerns that the ATO “faces many human
capital challenges, including obtaining necessary technical and contract
management expertise.” Despite the personnel shortfall, FAA reported to OST
that staffing for ARRA projects was adequate.

ATO’s Power Services Program is particularly vulnerable to staffing shortages.
Even before $50 million of the $200 million in ARRA F&E funds was added to
the program in 2009, ATO was planning to more than double the Power Services
Program budget from $50 million in 2009 to $122 million in 2011. To manage
their growing number of ARRA-funded and non-ARRA-funded projects, program
officials indicated they need to add 35 program office and field engineering
services personnel. However, the ATO has been slow to fill positions. In FY
2009, just 2 of the 6 staff positions requested for 2009 were filled. With 35 total
additional personnel needed by 2011, ATO program officials stated that they plan
to meet increased ARRA and non-ARRA staffing needs with support contractors.
However, recent FAA evaluations of two support contractors being considered
cited staffing and other vulnerabilities. The evaluations identified problems such
as high attrition rates, insufficient management staff to accomplish assigned work,
and a need to improve the support contractor’s engineering design and
procurement capabilities in general.

MARAD also lacks a comprehensive workforce plan to address its ARRA human
capital needs while continuing to carry out its existing program responsibilities.
Addressing staffing demands is critical for MARAD because ARRA increased
funding for the Small Shipyards Grant Program tenfold over FY 2008—the first
                                                                                                17


year of the program. MARAD developed a general strategy to employ contractors
and reassign existing staff to do ARRA work on an as-needed basis. The strategy,
however, does not list all staff assigned to administer the program, stipulate staff
assignments and timelines, identify program management and staff vacancies, or
establish mitigation plans to deal with staffing shortfalls. The strategy also
excludes human capital data from some offices playing key roles in MARAD’s
ARRA-funded grant program, such as the Office of the Chief Financial Officer.
Additionally, MARAD’s workforce plan focuses only on the grant pre-award
process, not on the grant oversight process; and two key vacant management
positions in MARAD’s program office were not included in the plan. According
to MARAD officials, they have had difficulty finding qualified new employees
with the knowledge, skills, and abilities needed to take on the new responsibilities
for overseeing Federal investments. Consequently, they were temporarily filling
this need by employing contractors and using existing staff. As MARAD
dedicated experienced financial and technical staff to review ARRA grant
applications, its other work, such as administering its loan guarantee program, was
delayed, but was later completed. MARAD officials told us in September 2009
that they had addressed the staffing needs posed by ARRA and further analysis
was not required. However, the lack of a comprehensive workforce plan based on
a detailed analysis does not provide us with reasonable assurance that MARAD’s
deployment of its staff is sufficient to meet both its ARRA-related and existing
program responsibilities.

While FRA did not conduct an ARRA-specific comprehensive workforce analysis
after ARRA increased its budget by billions of dollars, it previously identified
overall staffing shortages in both its High-Speed Rail Program and Amtrak Capital
Grants Program. As part of its overall restructuring plan for the Office of Railroad
Development, FRA recently prepared a workforce analysis 15 to determine its
human capital needs for administering the future needs of the organization as a
whole, including its ARRA programs. The agency also identified the need for 27
additional full-time equivalents (FTEs) in its FY 2010 budget request. The agency
is also seeking assistance in conducting project oversight through an existing
interagency agreement with DOT’s RITA.

FTA initiated a workforce analysis that pre-dated ARRA, but it remains a work in
progress—more than 7 months since ARRA was signed into law. FTA estimates
that ARRA funding could result in 1,200 new ARRA grants, and that its regular
programs will likely generate over 1,000 grants in FY 2009. According to FTA, it
is working to identify staffing gaps and develop an action plan to fill the positions.
For example, to manage its ARRA programs, FTA reported that it has hired 23
employees to fill critical vacancies and will fill an additional 13 positions by the

15
     A staffing proposal (dated September 1, 2009) was provided to OIG on September 24, 2009.
                                                                                           18


end of calendar year 2009, bringing the total number of hiring actions to support
ARRA activities to 36. FTA also received authority from the Office of Personnel
Management to hire 40 re-employed annuitants for ARRA work and direct-hire
authority for 40 term ARRA employees. Although FTA has been hiring staff to
meet the increased ARRA workload, we do not have sufficient assurance that
FTA’s efforts have been guided by a comprehensive plan that depicts the agency’s
staffing needs across its Headquarters and regional offices.

Officials at FTA’s New York Regional Office—which typically administers the
most funds of FTA’s field offices and received over $1 billion—stated that they
were behind on non-ARRA work because they were dedicating staff from regular
programs to meet their deadline for awarding ARRA funds. Given that the New
York office oversees projects totaling over $12 billion in Federal investments—
including the Second Avenue Subway Project, East Side Access Project, and the
Access to the Region’s Core Project—the impact of any delays could be
significant. In addition, officials from FTA’s Atlanta Regional Office expressed
concern that the office would not have sufficient personnel to administer ARRA
grants. In response to this concern, officials told us they planned to hire four
temporary employees. Further, some projects selected through the STIP and TIP
process could require enhanced Federal oversight at a time when agencies’
resources are struggling to meet new demands. For example, in September
2008, 16 we reported that New York City’s Fulton Street Transit Center project,
which is receiving ARRA funding, had experienced significant estimated cost
increases and schedule delays. Although $847 million was already committed to
the project through FTA’s Lower Manhattan Recovery Projects program, New
York added a significant portion of its ARRA funding—as much as $424
million—to boost the project. Consequently, DOT’s exposure on this project
could be over $1.2 billion.

In contrast to the other agencies we reviewed, FHWA completed workforce
analyses at each of its 52 Division Offices to identify any additional staffing
requirements through FY 2012, when its ARRA funds for oversight activities
become unavailable for obligation. FHWA identified further staffing needs at the
Headquarters level, primarily to address ARRA’s reporting requirements. Based
on its analyses, the agency began posting job announcements in January 2009 to
fill 56 permanent positions and about 5 contract support positions for FY 2009.
As of mid-June 2009, FHWA had filled 34 of the newly identified positions and
was hiring 4 additional individuals for a special ARRA review team. In addition
to hiring new staff to meet specific FHWA division needs, FHWA used detailees
for ARRA work and shared staff between its offices.

16
     OIG Report Number MH-2008-086, “Baseline Report on the Lower Manhattan Recovery Projects,”
     September 26, 2008.
                                                                                                              19


At FHWA, four of the five Divisions we visited noted that the economic downturn
has resulted in hiring limitations at their respective state Departments of
Transportation. For example, the Pennsylvania Department of Transportation is
under a hiring freeze, and the Texas Department of Transportation lost between 8
and 9 percent of its workforce. According to the Division Office officials we
spoke with, states are taking measures to address staffing shortages, such as
temporarily shifting existing personnel to needed offices and hiring temporary
construction inspectors. However, the focus on ARRA projects, existing staffing
limitations, and decreases in state transportation funding could ultimately
overwhelm states and undermine their ability to achieve ARRA’s goals to
stimulate the economy and protect Federal investments.

Operating Administrations Have Established Varying Levels of ARRA
Oversight
Varying levels of oversight have been established for DOT’s ARRA programs,
from FAA’s use of cost-plus contracting types in its Facilities and Equipment
program to FHWA’s challenge in overseeing states’ use of billions in highway
funding. To mitigate the risk of inefficient or imprudent expenditure of ARRA
dollars, OMB directed agencies to take steps, beyond standard practice, to enhance
oversight of ARRA grant programs and contracts. OMB also directed agencies to
initiate additional oversight mechanisms to mitigate the unique implementation
risks of ARRA, such as using fixed-price contracts and competitively awarding
grants. Some DOT agencies, such as MARAD, have not provided this enhanced
level of oversight. Other agencies, such as FHWA and FTA, will likely find it to
be a difficult management challenge to provide sufficient oversight even when
additional mechanisms have been established, or existing mechanisms are
enhanced.

Despite OMB guidance emphasizing fixed-price contracts, FAA’s ATO is
modifying existing cost-plus-fixed-fee and award-fee contracts to manage some of
the $200 million worth of ARRA funding for projects in its Facilities and
Equipment program. These types of contracts create substantial risk, given that
they provide considerable latitude for cost growth in the event of changes to a
project’s scope or requirements—cost growth that the Government bears.
Moreover, we have repeatedly reported that FAA has not managed these types of
contracts well. 17 In addition, a recent FAA Program Management Review of one
of the program’s contractors raised questions about the contractor’s overreliance
on the same small group of subcontractors and the ability to do quick turnaround
jobs.
17
     OIG Report Number FI-2008-054, “Interim Report: Award-Fee Criteria for the National Airway Systems Contract,”
     May 28, 2008. OIG Report Number FI-2009-002, “Interim Report on Award-Fee Criteria for the System
     Engineering and Technical Assistance II Contract,” October 7, 2008. OIG Report Number PT-2009-005, “Top
     Management Challenges,” November 17, 2008.
                                                                                    20



Also, MARAD has not taken measures to enhance oversight of ARRA funds
awarded through its Small Shipyards Grant Program. We found the existing
guidance for the grant management process was a high-level plan that lacked
specific procedures and processes for enhancing MARAD’s oversight of ARRA
funds and mitigating potential risks. Specifically, MARAD did not issue written
policies and procedures establishing internal controls that address segregation of
duties, financial reconciliations, and access to and storage of records. In July
2009, MARAD officials told us that existing guidance was outdated and would be
revised. Establishing specific internal controls would provide a reasonable
assurance that the MARAD offices managing and overseeing ARRA funds are
safeguarding the funds against fraud, waste, and abuse; and that agency operations
are recorded and accounted for properly. MARAD’s reliance on grantees to
provide proof that work is being conducted in accordance with the terms of the
grant agreements further weakens its oversight of ARRA projects. Moreover,
MARAD’s oversight strategy includes plans to visit grantee shipyards, but
officials said they could not guarantee that they would visit each shipyard to verify
that ARRA funds were used as intended, before all of the monies were expended.
Instead, MARAD plans to rely on monthly progress reports and documentation
provided by its grantees, such as invoices and photographs of the projects.
MARAD officials also told us that they plan to withhold 10 percent of the Federal
share of each grant until receiving a final closeout report.

FHWA has taken a number of measures to enhance its oversight of ARRA
projects; however, the sheer magnitude of the ARRA funds the agency is
responsible for administering creates significant oversight challenges. FHWA
directed its 52 Division Offices to implement a risk management program that is
geared at preventing inefficient or imprudent spending on ARRA projects.
FHWA’s key management challenge is following through on this initiative to
ensure it results in effective oversight of the $27.5 billion the agency is responsible
for. As part of this strategy, FHWA Division Offices are required to augment their
usual oversight efforts by conducting “visible monitoring” of processes and
documentation within their respective states. For example, Divisions may conduct
checks of financial transactions, consultant procurements, bid processes, and
change order approvals.

FHWA also needs to sustain focus on its national review teams—a new strategy
for overseeing Division Offices’ implementation of the risk management program.
These teams will conduct site reviews across the country and utilize standard
review guides to examine programs, projects, and processes. This will afford
                                                                                                                   21


FHWA the opportunity to identify national trends, and potentially, best practices. 18
However, FHWA’s planned schedule is aggressive and it remains to be seen
whether this new strategy will effectively identify non-compliance issues. In the
past, FHWA’s efforts to employ a centralized approach like this have not always
been successful, as we saw with its implementation of a program to identify risks
related to structurally deficient bridges. 19

FHWA’s Indian Reservation Roads Program (IRR), 20 which received $310 million
in ARRA funds, also presents a significant oversight challenge. This program is
jointly administered between FHWA and the Department of the Interior Bureau of
Indian Affairs (BIA). BIA has experienced documented problems in overseeing
Federal funds at reservations and villages in the past. Further, in February 2009,
the Interior Department Inspector General issued a flash report 21 citing concerns
about the IRR program’s oversight of contract, financial, and construction
management processes in Alaska. Accordingly, FHWA also identified this
program as a key ARRA implementation risk and, according to its risk mitigation
plan, intends to hire additional staff and provide educational activities for BIA
field personnel and the tribes on ARRA requirements through “webinars” and
other means. We agree that providing an enhanced level of oversight beyond
standard business practices, and collecting reliable data on program results, will be
difficult due to the large number of widely dispersed Indian Reservations and
Alaska Native Villages that are expected to receive ARRA funding (over 300) and
the complex tribal sovereignty issues involved.

FTA plans to primarily rely on existing reviews to provide oversight of ARRA-
funded projects, using ARRA funds to increase the level of these reviews. At the
grantee level, this will include a set of established periodic reviews such as
generalized triennial reviews (state reviews for non-urbanized areas) and specific
area reviews, for example, procurement system reviews. FTA plans to use some
ARRA funds designated for oversight to increase the level of these reviews for
grantees identified as being high risk. At the specific grant level, day-to-day
oversight will be done by regional office personnel. As it normally does, FTA
also plans to use project management oversight contractors and occasional reviews
by financial management oversight contractors. Additionally, FTA officials
informed us that they plan to use project management oversight contractors on
some ARRA projects that are not considered to be major projects—an increased
18
     Between June and September 2009, the national review teams were scheduled to visit 33 states and conduct 56
     reviews. The types of reviews scheduled in each state were based on the specific risks identified by the Divisions
     and the number of projects available for review.
19
     OIG Report Number MH-2009-013, “National Bridge Inspection Program:                    Assessment of FHWA’s
     Implementation of Data-Driven, Risk-Based Oversight,” January 12, 2009.
20
     This program provides funding to improve the transportation systems providing access to and within Indian
     Reservations and Alaska Native Villages.
21
     DOI OIG Report No. WR-IV-BIA-0001-2009, “BIA Alaska Regional Indian Reservation Roads Program Rife
     with Mismanagement and Lacking Program Oversight,” February 2009.
                                                                                                               22


level of oversight from standard practice. Follow-through by FTA to ensure that
all oversight activities are conducted consistently with sufficient rigor is key,
given the dramatic increase in funds that FTA will be overseeing on its ARRA
projects.

DOT Has Developed ARRA Risk Management Strategies But
Implementation Issues Remain
In response to OMB guidance requiring agencies to review, assess, and manage
ARRA risks, OST initiated a four-stage process to develop mitigation strategies to
address the immediate risks confronting ARRA programs. This process involved
active consultation among OST and the Operating Administrations in an effort to
supplement existing oversight programs. 22 Our summer of 2009 review of risk
management strategy documents at FAA, FHWA, FRA, and FTA identified
shortcomings in the documentation, such as missing target completion dates for
mitigating identified risks. Additionally, MARAD and OST had just completed
their risk strategy documentation. At that time OST officials stated that they were
actively working with the Operating Administrations to correct shortcomings and
finalize these documents. In September, OST officials stated that the Operating
Administrations had completed their risk mitigation strategies, although we have
not analyzed these documents to determine whether our earlier concerns had been
addressed.

The Operating Administrations’ efforts to implement their risk management plans
will need to be monitored by OST over time. OST staff told us they plan to
monitor the actions monthly, provide guidance, comments and feedback, and share
best practices among all Operating Administrations. These actions would help
OST ensure that each Operating Administration follows through and takes
sustained action to manage identified risks in its portion of the recovery program,
identify cross-organizational issues, and determine if the mitigation strategies are,
in fact, working throughout the ARRA program. However, OST may not have the
resources needed in the long-term to ensure that the strategies are carried out and
to evaluate their effectiveness. According to OST, it deployed two staffers to
assist in ARRA-related administrative reporting and one senior manager to
oversee the effort. OST’s oversight challenge has been exacerbated because
ARRA did not provide OST with administrative funding for this activity.
Insufficient resources could affect OST’s ability to provide oversight in the long
term.




22
     Existing oversight programs include DOT reviews of management controls and financial systems to comply with
     the Federal Managers Financial Integrity Act (FMFIA) and reviews of internal controls over financial reporting
     under OMB Circular A-123, “Management’s Responsibilities for Internal Controls.”
                                                                                23


DOT Has Taken Steps To Increase Fraud Education and Outreach, but
Continued Focus Is Needed as Additional ARRA Dollars Are Released
OMB requires Federal agencies to aggressively address fraud, waste, and abuse in
ARRA projects. Some Operating Administrations have been proactive in meeting
this requirement. For example, FTA provided a week-long “Grants A to Z”
seminar, which included an OIG presentation that provided FTA staff with
training on how to recognize and prevent fraud in the recovery program. Given
that many ARRA projects may involve grantees with little or no experience in
managing Federal grants, sustained outreach is needed to enhance understanding
among DOT staff, grantees, and their contractors on how to deter, detect, and
report potential fraud, waste, and abuse. The OIG investigations related to ARRA
fraud that are already open underscore the need to make sure fraud awareness is
reaching the public and private parties involved in ARRA’s implementation.
Specifically, as of August 2009, we received 131 ARRA-related complaints
through our Fraud Hotline.          U.S. Attorney’s Offices have accepted six
investigations for prosecution that deal with allegations of disadvantaged business
enterprise fraud, false statements, bribery, and bid-rigging.

Increasing awareness of certain “red flags” that could indicate the presence of one
or more fraud schemes contractors use to increase job profit is a key element in
deterring fraud, waste, and abuse. Typical fraud schemes include bid-rigging and
collusion; materials and time overcharging; and bribery, kickbacks, and conflicts
of interest. Indicators of bid-rigging and collusion include identical errors in
contract bids, and common addresses, phone numbers, or personnel among
bidders. Indicators of materials and time overcharging include lack of supporting
documentation or original documents; and indicators of bribery include
unexplained or unreasonable compensations. (See exhibit D for additional fraud
schemes, descriptions, and red flag indicators.)

In addition to outreach, another key focus area is DOT’s implementation of its
Suspension and Debarment Program, which has a history of untimely processing
and reporting of suspension and debarment actions.            Inattention to this
vulnerability creates the risk that government funds, including ARRA program
dollars, will be awarded to businesses and individuals that have committed fraud
or are otherwise known to be irresponsible. In May 2009, we issued an ARRA
Advisory to the Department on this subject. The Advisory included proposed
actions for OST to (1) revise the policy and process to prevent irresponsible
businesses and individuals from conducting business with the Department and
(2) assign responsibility to a specific office to monitor and oversee Operating
Administrations’ implementation and compliance with the policy. Attention to
this issue is important because significant delays in deciding and reporting
suspension and debarment cases have put DOT and other Federal agencies at risk
                                                                                                                24


of doing business with unethical parties.

Since the awarding of ARRA funds, OIG’s investigative staff has conducted fraud
awareness and prevention briefings and meetings for FHWA officials from all
50 states, the District of Columbia, and Puerto Rico; state DOT officials from
35 states; FTA regional officials with the responsibility for providing service to 26
states; local transit authority staff from 9 states; and local aviation authorities.
Outreach efforts have also included industry stakeholders, such as the National
Association of State Highway and Transportation Unions. As more recovery
projects are initiated across the country, OIG’s investigative staff plans to continue
to partner with program officials to provide fraud prevention and awareness
education. However, each Operating Administration must maintain its own
rigorous fraud prevention and awareness programs and not solely rely on OIG for
education and outreach.

DOT FACES MANAGEMENT AND RESOURCE OBSTACLES TO
EFFECTIVELY IMPLEMENT OVER $9 BILLION IN NEW ARRA
PROGRAMS
In addition to increasing funding for existing DOT programs, ARRA created new
discretionary grant programs, including $8 billion to jump start the creation of
high-speed rail corridors and intercity passenger rail service (under FRA) 23 and
$1.5 billion for surface transportation infrastructure projects (under OST).
Working within tight time frames, FRA and OST were required to develop
comprehensive plans and sound criteria for the new programs and develop
appropriate oversight strategies. While each agency has made some progress, they
must overcome significant resource and management obstacles to effectively
implement their programs.

FRA Resources May Be Insufficient To Effectively Implement and
Manage the High-Speed Rail Program
FRA’s High-Speed Rail Program represents a significant organizational
transformation for the agency, from a relatively small agency primarily focused on
rail safety issues, to a grant-making agency responsible for starting up a large,
long-term program, which could receive much public attention and scrutiny.
Taking on the new responsibilities that come with this transformation has been a
challenge for FRA. Specifically, FRA has not acquired sufficient capacity to
effectively manage the program and has not developed a comprehensive
implementation strategy. At the same time, the agency faced a significant
challenge in completing the grant application and selection process within a

23
     The Administration has pledged to provide an additional $1 billion per year in each of the next 5 years.
                                                                                                                      25


constricted timeframe. While the initial process of evaluating applications has
been completed 24 and the agency plans to begin awarding grants in the second
quarter of FY 2010, FRA has not determined how it will evaluate cost, schedule,
and ridership estimates. Finally, the concurrent implementation and integration of
a new electronic management system for administering grants further heightens
implementation risks in the rush to meet statutory deadlines.

FRA officials acknowledged that FRA has insufficient capacity to start up and
effectively manage the High-Speed Rail Program. According to officials, the
money currently allotted for program management will be depleted during the
grant evaluation and award phase, leaving no money for grant administration
oversight. Consequently, FRA has asked Congress to increase from $20 million
(0.25 percent) to $80 million (1 percent) the amount of ARRA funds it can use to
administer the program. FRA has also requested an additional 27 FTEs 25 in its
FY 2010 budget—specifically to help support the High-Speed Rail Program. 26 To
fill gaps in the near term, FRA assessed its options to address resource needs to
complete the first round of the grant application evaluation and selection process.
Ultimately, to score the 214 grant applications it received in its initial round of
evaluations and selections, FRA assembled 12 evaluation teams (each consisting
of three individuals). These teams, which were required to complete their
assessments within a 2-week time frame due to statutory deadlines, were
comprised of staff borrowed from within FRA, as well as FTA and DOT’s
Research and Innovative Technology Administration.

FRA has not finalized policies and procedures for program implementation and
operation, but rather has relied on contractors to develop an implementation
strategy. For example, an FRA contractor developed a grants management master
plan that contained over 400 action items for FRA, such as developing
performance measures and standard operating procedures for grant administration.
The plan did not contain deadlines or contingencies for performing pre-award
tasks, such as establishing standard grant agreements and standard operating
procedures, tools or templates to help oversee projects and conduct site visits, or
standardized processes for reviewing and processing grantee invoices. FRA has
not provided us documentation showing the status of these tasks, so it is unclear
whether FRA will be able to complete these tasks before grants are awarded. FRA
officials told us that they are focusing on tasks along the program’s “critical path”

24
     ARRA required FRA to select all projects by September 30, 2012.
25
     This staff is to be distributed between FRA's Office of Railroad Development (22 positions), Office of Chief Counsel
     (2 positions), and Office of Financial Management and Administration (3 positions). FRA has begun hiring and
     anticipates new staff to be on board by the second quarter of FY 2010.
26
     On September 24, 2009, FRA commented that it has completed its workforce assessment and submitted its staffing
     proposal. We have not reviewed this analysis and thus, cannot comment on how FRA determined the number of
     FTEs it actually needs. Regardless of whether it receives the FTEs requested in the 2010 budget, it is important that
     FRA’s staffing proposal is translated into an implementation plan that will adequately address its requirements.
                                                                                                                       26


and intend to address other tasks at a later, undetermined date. In response to
concerns we expressed in our draft report, FRA stated it was in the process of
documenting its program implementation strategy and operational policies and
procedures. With the assistance of a contractor, FRA expects to complete a grant
management manual, which will include comprehensive grants management
policies and procedures, by March 2010.

FRA issued interim guidance for ARRA grant applicants in June 2009. While the
guidance included general grant terms and conditions, application procedures,
project safety requirements, quality assurance procedures, and evaluation criteria,
it lacked sufficient detail and clear direction to prospective applicants. For
example, the guidance required applicants to determine the future funding needs
for all proposed projects using a cost-estimating methodology that may not be
developed until October 2010—nearly a year after the first round of grant
selections are to be made. In addition, as part of its application evaluation and
selection process, FRA planned to assign a quantitative score for each application,
after weighing each project against a set of criteria. 27 FRA officials stated that the
level of risk of each proposed project would be assessed based on the applicant’s
ability to complete the project within budget, on time, and as designed. However,
at the time of application evaluations, FRA had not determined how it would
assess applicants’ cost and schedule estimates. Moreover, FRA had not finalized
how it would evaluate the accuracy of applicants’ rider and revenue forecasts—a
key aspect of the merit and feasibility of proposed projects. Currently, FRA’s
metrics, as stated in its interim guidance, are largely qualitative, as shown in table
4, and a methodology for weighing these metrics was not identified in the
guidance—making the process more subjective.

Due to time constraints, FRA conducted application eligibility and quality reviews
nearly simultaneously. FRA regional staff determined the eligibility of each
proposal, while the 12 evaluation teams scored the projects. FRA noted that the
eligibility review was too time-consuming to conduct for every project; and only
submitted documents were reviewed. If an application was missing information,
no requests were made for additional documentation. According to FRA, because
an underlying purpose of ARRA is to get funds out into the economy quickly,
there was little time for a lengthy, iterative review process, particularly with the
number of applications received. FRA used the extent to which an applicant did
or did not submit the required information as part of determining the applicant’s
eligibility.




27
     FRA had the authority to apply additional criteria for final selection. However, its interim guidance did not provide
     details as to how the FRA Administrator might apply this authority.
                                                                                                   27


Further, while FRA developed its internal methodology for the evaluation panel to
weigh these metrics, 28 we were unable to determine if or when it will be publicly
available. Without a clear and complete methodology for ranking applications, the
selection process will lack transparency—one of ARRA’s key principles—and
questions will remain as to how the agency determined the projects with the
highest merit. Full disclosure of FRA’s rationale for making investment decisions
is important considering that a limited number of the hundreds of project sponsors
that applied for funding are likely to be selected.

 Table 4. Summary of FRA’s High-Speed Rail Grant Selection Criteria

       Evaluation Criteria:
       • Public Return on Investment: Includes transportation benefits, economic recovery
          benefits, other public benefits
       • Project Success Factors: Project management approach, sustainability of benefits
       • Other Attributes: Timeliness of project completion

       Additional Selection Criteria: To ensure that evaluation scoring has been applied
       consistently, projects meet key priorities and achieve balance/diversity
       • Region/Location: Geography and Economic Conditions
       • Innovation: Technology and Industrial/Capacity Development
       • Partnerships: Multi-state agreements
       • Tracks and Round Timing: Project costs and schedules

       Final Selection:
       • A technical evaluation panel will review each application and assign a rating
           between 1-5 points according to the evaluation criteria above.
       • The ratings will be weighted by the relative priority of each criterion (which also
           varies by application track) to achieve an overall application score.
       • The scored applications will be presented to the FRA Administrator, who may then
           apply the additional selection criteria to make final project selections.

FRA is also tasked with implementing a new electronic grants management
system, Grants Solutions, and is in the process of integrating this system with its
accounting system, Delphi, to enable more comprehensive monitoring of ARRA
funds. Given the other tasks FRA still needs to complete within short time frames,
moving to this new electronic system presents a significant management challenge
for FRA.        Because agencies often experience unforeseen problems in
implementing new management systems, the agency risks employing a new
system and adding additional features to it prior to establishing a sufficient level of
expertise or experience. FRA stated that it recognizes this and assembled a team
early on in the process to help develop and implement the new grants management



28
     FRA provided its Evaluation Guidebook (dated August 24, 2009) to OIG on September 24, 2009.
                                                                                                                    28


system. 29 FRA added that it has trained its staff and deployed the system, as
scheduled, in January 2009. While they anticipate awarding all grants through the
system in FY 2010, FRA officials stated that they also continue to make system
enhancements as deemed necessary. To ensure successful implementation, FRA
will need to continue thoroughly testing the system and training staff responsible
for using the system.

OST Has Not Finalized Oversight Responsibilities in the TIGER
Discretionary Grants Post-Grant Award Process
OST has not finalized its role in the post-grant award process of its $1.5 billion
TIGER Discretionary Grants program—a capital investment program for surface
transportation infrastructure 30—once grants are awarded. Also, OST has not
thoroughly assessed what additional grant oversight resources or expertise it will
need to effectively administer these grants.

Earlier this year, DOT publicly released the primary and secondary selection
criteria it will use as the basis for evaluating TIGER grant applications (see
table 5). 31 During our audit, we discussed with OST officials potential difficulties
we noted with establishing objective internal grant review and selection criteria.
Qualitative factors such as “improving existing transportation facilities or
systems” and “livability” are subject to interpretation by OST grant application
evaluators. In addition, OST must use the primary and secondary criteria it
developed to competitively select grants, while meeting the statutory requirement
that the grants be equitably distributed geographically. These potentially
competing requirements, mandated by law, could be difficult to reconcile, and
revising selected projects to satisfy the geographic distribution requirements could
result in higher rated projects being taken off the list. OST officials told us they
would provide us with clear documentation and complete disclosure of how
projects are selected to ensure a high degree of transparency and accountability.
On September 22, 2009, OST issued its internal review guidance. OST began
evaluating grant applications on September 23, 2009.




29
     This team consisted of FRA program and grants management experts as well as system support experts from the
     Center of Excellence provider, the Department of Health and Human Services.
30
     TIGER grants will provide funding to state and local agencies on a competitive basis for projects with a significant
     national, metropolitan, or regional impact. DOT is expected to give priority to projects where Federal funds are
     required to complete the project’s overall financial package and are expected to be completed by February 2012.
     The grants offered under this program may range from $20 million to $300 million. The Department plans to
     make final project selections no later than February 17, 2010.
31
     Federal Register, Vol. 74, No. 115, Wednesday, June 17, 2009.
                                                                                                29




                    Table 5. TIGER Grant Selection Criteria
  Dollar Thresholds and Priorities:
  Project(s) should be between $20 million and $300 million.
  The Department may waive the $20 million minimum to fund significant projects in smaller
  cities, regions, or states.
  Priority will be given to projects expected to be completed by February 17, 2012, and
  where Federal funds are needed to complete the project’s overall financial package that
  includes non-Federal sources of funds.*
  Primary Selection Criteria:
  Long-Term Outcomes: (1) improving the condition of existing transportation facilities and
  systems, (2) economic competitiveness, (3) livability, (4) sustainability, and (5) safety.
  Job Creation and Economic Stimulus: Job creation and preservation and rapid increases
  in economic activity, particularly jobs and activities that benefit economically distressed
  areas.
  Secondary Selection Criteria:
     • Innovation.
     • Partnership.
  Final Selection:
  The evaluation team will recommend a project based on primary and secondary criteria.
  The primary selection criteria will be given more weight.
  Project pool will be reviewed for geographic distribution requirements. A state cannot
  receive more than 20 percent of the funds made available under this program.
  The list of recommended projects may be adjusted to meet rural and urban needs and
  equitable geographic distribution.
 Source: 74 FR 28755 (June 17, 2009)
 *ARRA allows 100 percent of Federal share of project costs.


OST’s role in overseeing projects that have been awarded TIGER grants also
remains unclear. This may be a challenge given that OST lacks experience in
directly overseeing a grant program of this magnitude. While OST plans to
partner with Operating Administrations to oversee TIGER grants, key issues
remain unresolved as to how the partnerships will work. For example, OST has
not defined the level of administrative and oversight control it plans to retain. In
addition, OST has not assessed the type and level of in-house expertise it needs for
the post-award grant phase, although OST officials acknowledged that they will
likely need to acquire new staff and resources to do so.

DOT IS WORKING TO ADDRESS ARRA REPORTING
REQUIREMENTS, BUT HAS NOT COMPLETED KEY TASKS
ARRA’s extensive new reporting and performance measurement requirements,
which OMB detailed in a series of implementation guidance documents, are
designed to promote accountability and transparency. While DOT has been
working to meet these requirements, it has not fully documented and implemented
                                                                                                         30


processes for reviewing data collected from ARRA recipients and faces challenges
in reporting accurate and consistent job creation data.

DOT’s Operating Administrations Have Not Fully Documented
Processes for Reviewing Data Collected From ARRA Recipients
The data reporting requirements mandated by ARRA and OMB guidance include
detailed information on project expenditures, project status and performance
reports, and job creation updates. 32 Additionally, OMB’s June 2009 guidance
directed the Department to provide some degree of review to ensure that recipients
are reporting accurate ARRA project data to the Federal Government—even
though OMB did not spell out how Federal agencies should accomplish this task.
The initial agency review period was from October 22 through October 29, 2009;
and will be repeated quarterly thereafter. Review of recipient data quality was
identified as a risk by the majority of Operating Administrations in their risk
assessments and the Recovery Accountability and Transparency Board 33 requested
that Offices of Inspectors General determine whether their respective agencies,
including DOT, have established a process to perform limited data quality reviews
that are intended to identify material omissions or significant reporting errors.

We found that the Operating Administrations have taken actions to ensure that
ARRA recipients comply with data reporting requirements. Officials from all the
Operating Administrations told us that they will conduct data quality reviews of
recipient data, notify recipients of errors, and address systemic or chronic
reporting problems when data become available. At the time of our review, the
Operating Administrations were in various planning stages for conducting the
reviews. For example, FAA and FTA had documented processes to conduct the
data quality reviews while FHWA, FRA, and MARAD had not accomplished this
task. Operating Administrations planned to have processes in place by
October 22, 2009—in time to conduct limited data quality reviews, as required by
OMB. Department officials stated that once completed, they expect the Operating
Administrations to continue to revise the review processes based on lessons
learned during the initial data quality reviews. However, until all the Operating
Administrations have final processes in place, we cannot assess whether these
processes will adequately identify omissions and significant reporting errors.

DOT’s Readiness to Report Accurate and Consistent Job Creation
Data Is Unclear
ARRA requires DOT to estimate and report on the number of jobs created through
the recovery program. Several challenges, such as a lack of guidance to the

32
     Much of the data will eventually be posted on www.recovery.gov.
33
     This Board was created by ARRA to conduct oversight of recovery funds. The Board consists of a chairman,
     appointed by the President, and 12 Inspectors General, including DOT.
                                                                                31


individual Operating Administrations on assessing data reliability and untimely
reporting on new jobs, may impede the Department’s ability to provide accurate
reports. Because DOT has already provided monthly estimates to the Secretary,
its information on ARRA projects may need to be revised at a later date to provide
more credible data.

First, DOT has not provided guidance on how Operating Administrations should
assess the reliability of job creation data provided by recipients. OST has
requested that DOT’s Bureau of Transportation Statistics design a methodology to
be used by each Operating Administration for this purpose, but this work is not
expected to be completed until later this year. In the meantime, individual
Operating Administrations have provided their own guidance to recipients and
developed their own data assurance methodologies.

Second, DOT’s methodology for estimating jobs created on ARRA projects
through indirect employment is not consistent with the Council of Economic
Advisors’ (CEA) recommended methodology for estimating total employment.
To estimate indirect employment, DOT plans to use a modified input-output
model. Input-output models are simplistic in their assumptions and do not take
into account the effects of changes in prices, wages, and interest rates. To obtain
more accurate total job estimates, CEA draws upon the results from more
sophisticated models that do consider such factors. While DOT committed to use
CEA’s methodology to estimate total employment, the Department continues to
use its modified input-output model for estimates of indirect employment. Given
the limitations of this model, DOT’s indirect employment estimates may lack
credibility.

Third, OST intends to report indirect and total jobs as having been created on the
date recipients are reimbursed for expenditures on projects that generate jobs—not
when the expenditures generating the jobs actually occur. Given that expenditures
may not be reimbursed until well after a project has started, there may be
significant time lags between when new jobs are actually created and when they
are reported, creating ambiguity in the estimates.

CONCLUSION
ARRA’s passage required DOT to manage an enhanced workload for existing
grant programs, while meeting new program requirements in a short period of
time. This created significant challenges including overseeing numerous grantees
and projects across the country, standing up several new programs, and meeting
tight time frames for distributing and expending funds and reporting results.
                                                                               32


The Department and its Operating Administrations have taken a variety of
measures to address the challenges presented by ARRA. At this point in the
recovery program, some Operating Administrations have made strides towards
enhancing management of their portion of the program. However, others, such as
FRA, currently lack adequate resources, processes, and the capacity to effectively
manage this new workload.

Until DOT addresses the areas we identified as requiring action now—such as
finalizing comprehensive workforce plans for all Operating Administrations and
determining effective oversight strategies for the new high-speed rail and TIGER
Grants programs—it will remain vulnerable to not meeting ARRA’s goals or
requirements. Further, DOT must keep sight of key management challenges that
require a sustained focus over time, such as carrying out the work of FHWA’s
national review teams, providing counter-fraud outreach, and overseeing the STIP
and TIP process for billions in highway and transit formula grants.

As we move to the next phase of our ARRA work, we will use the results of our
agency scans to conduct detailed assessments of areas that warrant additional work
and reporting based on potential risks. In fact, we have already initiated audits
concerning FRA’s High-Speed Rail Program and FAA’s AIP Grant selection
process. We remain committed to protecting the Federal investment over the long
term.

RECOMMENDATIONS
To ensure the Department takes sufficient action to address the areas of concern
identified in this report, we recommend that the Secretary of Transportation,
through the DOT TIGER team, develop an action plan that lays out the steps that
DOT will take or has already taken to:

1. Finalize comprehensive workforce plans for all Operating Administrations that
   address the adverse impacts of staffing issues on existing programs.

2. Identify necessary actions and resources for carrying out and monitoring
   DOT’s risk management strategy.

3. Address risks related to the quality of data being reported to the public on
   program results, particularly job creation data.

4. Implement an effective oversight strategy for FRA’s High-Speed Rail and
   OST’s TIGER Discretionary Grants Programs.

5. Implement an effective oversight strategy for MARAD’s Small Shipyards
   Grant Program and, should the program receive more funding in the future,
                                                                                   33


   develop comprehensive guidelines for the grant evaluation and selection
   process.

6. Implement follow-up actions planned in response to ARRA Advisories.

The plan should assign responsibility, explain detailed action steps, and identify
target completion dates for how the Department or its Operating Administrations
plan to address these issues.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to DOT for review and comment on October 13,
2009. DOT provided us its formal comments on November 16, 2009, which we
incorporated into this report, as appropriate. DOT’s complete comments are
included as the appendix to this report. DOT also provided informal technical
clarifications, which we also incorporated into this report. In its formal comments,
DOT cited the new approaches it has taken to swiftly implement ARRA and, while
it concurred with our recommendation to develop an action plan, the Department
stated that our draft report lacked sufficient focus on providing critical, actionable
insights. We find this response perplexing since our report identified key
vulnerabilities regarding program requirements that may not be fully met by some
Operating Administrations. Our report also identified a number of factors that
could inhibit DOT’s oversight of ARRA spending, as well as key tasks to address
ARRA reporting requirements that still need to be completed. Our intent during
the audit was to provide DOT with real-time observations to mitigate further risks.

In fact, some Operating Administrations did take action in key areas based on our
work, which clearly demonstrates the usefulness of our independent assessment of
their efforts. Specifically, our continuous feedback during this audit resulted in
the DOT agencies taking steps to address issues we raised even before we issued a
draft report for comment. For example, in September we aired concerns about
FRA’s capacity to stand up its new high speed rail program under tight timeframes
and make prudent investment decisions among over 200 competing proposals in
such a short period of time. Subsequently, FRA postponed the announcement of
its selections from fall 2009 to early winter 2010.

In its comments, the Department praised its unprecedented efforts to meet ARRA
requirements under tight statutory deadlines. Our approach also recognized the
fast-moving nature of ARRA’s implementation and, like the Department, we
realized that standard business practices would not apply. Accordingly, we
completed a review in less than 5 months at each DOT agency that received
ARRA funding and provided real-time feedback throughout this audit, including
                                                                                  34


detailed exit briefings to each of the Operating Administrations and a
comprehensive capstone briefing to the Department’s leadership in September. In
addition, we designed a new template for expeditious reporting of results—ARRA
Advisories—and issued three such advisories during the course of this audit.

DOT also expressed concern about our critique of its methodology for estimating
jobs created through ARRA-funded projects, along with its timing of reporting job
creation data. With regard to this issue, we have continued our dialogue with the
Department since the issuance of the draft report and modified the report as
appropriate. However, we continue to maintain that limitations in DOT’s model
for estimating indirect employment could result in less credible job creation
estimates. In any case, the issuance of the data validations procedures being
planned by the Bureau of Transportation Statistics is an important control that has
yet to be completed.

The Department also commented that it looked forward to finding new and
innovative ways to work effectively with the OIG in order to identify problems
and implement solutions. We can report that our scan has positioned us well to do
so. In fact, we recently provided an early notice to the Department on our future
work by publishing our FY 2010 Recovery Act Audit Plan that includes 24
initiated or planned audits that will provide in-depth analysis of some of the issues
raised in this report. For example, we already initiated an audit of FAA’s process
for awarding ARRA-funded grants under its AIP program.

ACTIONS REQUIRED
We consider DOT’s planned actions to be reasonable and, in accordance with
Department of Transportation Order 8000.1C, we request that DOT provide us
with the action plan requested in our recommendation within 30 days of the date
of this report.

If you have any questions, please call me at (202) 366-1959, or Ann Calvaresi-
Barr, Principal Assistant Inspector General for Auditing and Evaluation at
(202) 366-1427.



                                         #

cc:    Heads of All Operating Administrations
       All Secretarial Officers
                                                                                35




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
The objective of this audit, the second phase of our ARRA-related work, was to
identify vulnerabilities that could impede DOT’s ability to (1) provide effective
oversight to ARRA-funded projects and (2) meet new requirements mandated by
ARRA and OMB. To address our audit objective, we conducted expeditious and
structured reviews, or scans, of each DOT Operating Administration’s
implementation of ARRA—based on the 10 key focus areas identified in our
Phase I March 2009 oversight challenges report.

Specifically, we:

   • established a task force to develop a strategy and approach for the Phase II
     work, ensure coordination of our efforts, develop a consistent message and
     reporting format, and share information;

   • identified a team structure consisting of five audit teams overseen by an
     Overall Lead/Reporting Program Director to conduct a scan across the six
     DOT agencies (excluding OIG) that received ARRA funding—Air (FAA),
     Land (FTA and FHWA), Sea (MARAD), New Programs (FRA), and New
     Programs (OST);

   • developed a Structured Information Collection Matrix (SICM) that laid out
     standard questions under each of the 10 focus areas (see table 3 in the
     Background section) to ask at each DOT component and a list of key
     documents to collect;

   • determined the agency Headquarters and Department-level offices each
     team would need to interview in order to answer the questions contained in
     the SICM;

   • selected first-level field locations within FTA and FHWA to conduct our
     audit work using the following methodologies.

       • FTA: The team conducted site visits at 3 of the 10 FTA Regional
         Offices, specifically New York, Chicago, and Atlanta. We selected
         New York and Chicago because they were two of the three Regional
         Offices that received more than $1 billion in ARRA funding, assuming
         that larger dollar amounts are associated with greater risk. We chose
         Atlanta because, at the time of selection, it was the Regional Office that
         had awarded the largest number of ARRA grants, and therefore might
         have encountered more advanced ARRA issues than the other offices.

Exhibit A. Objectives, Scope, and Methodology
                                                                             36



      • FHWA: The team conducted site visits at FHWA Division Offices in
        Texas, California, New York, Pennsylvania, and Maine. These
        Divisions were selected based on risk factors that could subject ARRA
        funds to fraud, waste, or abuse. Three factors were considered in
        weighting the overall risk of each state, including the total amount of
        ARRA funds provided to the state, the percent of ARRA funds
        obligated as of May 7, 2009, and the results of FY 2007 single audits of
        the state’s highway planning and construction program.

   • interviewed key external stakeholders to get a perspective on ARRA’s
     implementation, including associations, state and local Inspectors General
     and audit offices;

   • conducted systematic surveys, or scans, using the SICM of the six DOT
     components that received ARRA funding (excluding OIG) to identify
     potential vulnerabilities in each agencies’ ARRA implementation; and

   • assessed DOT’s progress in implementing the initiatives contained in the
     action plan it prepared in response to our March 2009 report on ARRA
     oversight challenges.

We conducted this performance audit from April through October 2009 in
accordance with Generally Accepted Government Auditing Standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit A. Objectives, Scope, and Methodology
                                                                               37




EXHIBIT B. OVERVIEW OF DOT PROGRAMS FUNDED UNDER
ARRA AND RELATED REQUIREMENTS

Federal Aviation Administration
ARRA appropriated $1.3 billion to the Federal Aviation Administration (FAA) to
Grants-In-Aid for Airports and Facilities and Equipment projects. ARRA
designated $1.1 billion for Airport Improvement Program (AIP) projects. These
discretionary grants are intended for development projects that enhance capacity,
safety, and security, as well as for aircraft noise compatibility planning and
programs. The ARRA statute requires that AIP funds must supplement and not
supplant planned expenditures from airport-generated revenues or from other state
and local sources for airport development activities. ARRA also expresses priority
for those projects that can be completed within two years.

ARRA also provided $200 million for FAA Facilities and Equipment (F&E)
projects, including related expenses incurred in administering the program.
ARRA stipulates that F&E recovery funds will be used to upgrade power systems,
air route traffic control centers, air traffic control towers and terminal radar
approach control facilities, and navigation and landing equipment. ARRA directs
FAA to give preference to projects that could be completed in 2 years.

Federal Highway Administration
ARRA appropriated $27.5 billion for Highway Infrastructure Investments. This
amount includes $840 million in set-asides to specific FHWA programs and $26.7
billion in apportionments to the states. Funds may be used for projects eligible
under the Surface Transportation Program, such as construction or resurfacing of
highways or bridges, or for passenger and freight rail transportation and port
infrastructure projects.

Set-asides
ARRA sets aside $840 million for the following programs:

  • Up to $40 million for FHWA’s management and oversight of ARRA projects
    and activities

  • $550 million for Federal Lands Highway (FLH) programs. FLH works with
    Federal Land Management Agencies to manage transportation needs on public
    roads serving Federal and Indian lands. In distributing ARRA funds, priority
    should be given to capital investments and projects that can be completed by
    February 17, 2011. The breakdown of this funding is as follows:

Exhibit B. Overview of DOT Programs Funded Under ARRA and Related
Requirements
                                                                              38



         • $310 million for Indian Reservation Roads.           FLH and the
           Department of the Interior’s Bureau of Indian Affairs jointly
           administer this program which addresses the transportation needs of
           over 560 Indian Tribes and Alaska Native Villages. Up to 4 percent
           of the ARRA funds may be used by the Secretary of the Interior for
           program management, project oversight, and administrative
           expenses.
         • $170 million for Park Roads and Parkways. FLH and the National
           Park Service jointly administer this program, which provides access
           to hundreds of National Park Service sites.
         • $60 million for Forest Highways. FLH and the U.S. Forest Service
           jointly administer this program, which provides access to and within
           the National Forest System.
         • $10 million for Refuge Roads. FLH and the U.S. Fish and Wildlife
           Service jointly administer this program, which provides access to the
           National Wildlife Refuge System.

 • $20 million for Highway Surface Transportation and Technology Training.
   This program is designed to increase the effectiveness of state departments of
   transportation training programs.

 • $20 million for Disadvantaged Business Enterprises bonding assistance. The
   DOT Minority Resource Center provides assistance to disadvantaged business
   enterprises in obtaining bid, payment, and performance bonds.

 • $105 million for the Puerto Rico Highway program.

 • $45 million for the Territorial Highway program. This program provides for
   the construction and improvement of highways in American Samoa, The
   Commonwealth of Northern Mariana Islands, Guam, and the United States
   Virgin Islands.

 • $60 million for the Ferry Boat and Ferry Terminal Discretionary Grant
   program. This program provides funds for the construction of ferry boats and
   ferry terminals. Under ARRA, priority should be given to projects that
   demonstrate the ability to be completed by February 17, 2011.




Exhibit B. Overview of DOT Programs Funded Under ARRA and Related
Requirements
                                                                                     39



Apportionments
The remaining $26.7 billion is apportioned to the states according to existing
formulas. States must set aside 3 percent (totaling $800 million) of their
apportionment for transportation enhancement activities and sub-allocate
30 percent (totaling $8 billion) of their apportionment to geographic areas based
on population. The remaining 67 percent (totaling $17.8 billion) may be used in
any area of the state for eligible projects. Funds for transportation enhancements
are restricted to 12 specific activities, including providing facilities for pedestrians
and bicycles, acquisition of scenic easements, landscaping, and historic
preservation. ARRA stipulated priority for projects that can be completed in three
years and those located in economically distressed areas.

Federal Railroad Administration
ARRA appropriated $9.3 billion to the Federal Railroad Administration (FRA)
designating $8 billion to FRA for Capital Assistance for High-Speed Rail (HSR)
Corridors and Intercity Passenger Rail Service, and $1.3 billion to the National
Railroad Passenger Corporation for Capital Grants to Amtrak.

Capital Assistance for HSR Corridors and Intercity Passenger Rail Service
ARRA appropriated $8 billion to FRA for three new competitive grant programs
for funding high-speed intercity passenger rail capital improvements, which were
authorized by the Passenger Rail Investment and Improvement Act of 2008.
   •  Intercity Passenger Rail Service Corridor Capital Assistance program
     (Section 301)
   • Congestion Grants program (Section 302)
   • High-Speed Rail Corridor Development program (Section 501)

The Secretary of Transportation has the authority to decide how the $8 billion
should be allocated across the three programs, and FRA said that it will not
allocate funding in advance of receiving applications.

Funding Strategy. FRA adopted an approach that recognizes the different stages
of HSR corridor development, the near-term desire to aid economic recovery
efforts, and the long-term desire to develop a national HSR network. To address
these diverse goals, FRA plans to fund these programs according to four tracks,
which have different application eligibilities, requirements, and deadlines for each
track. Tracks 1 and 2 will use ARRA funds (up to 100 percent Federal match, at
the option of the grant recipient; but FRA favors applicants with a funding match),
while tracks 3 and 4 will use FRA’s FYs 2008 and 2009 appropriations
(50/50 match).


Exhibit B. Overview of DOT Programs Funded Under ARRA and Related
Requirements
                                                                                    40


FRA anticipates making multiple awards under each of the four tracks, and may
reserve some ARRA funding for tracks 1 and 2 for future rounds of applications
because they will be using their annual appropriations funding in tracks 3 and 4.

Additionally, ARRA required that funding may not be used for project planning or
operating expenses, and that the FRA Administrator may retain up to ¼ of
1 percent of these funds to oversee and implement these grants.

Capital Grants to the National Railroad Passenger Corporation
ARRA appropriated $1.3 billion to the National Railroad Passenger Corporation
(Amtrak) for capital grants to Amtrak, designating $450 million for capital
security grants. ARRA stipulated that the remaining $850 million in non-security
funds to be used for projects that repair or upgrade railroad assets or infrastructure,
or those that expand passenger rail capacity or rehabilitate rolling stock. ARRA
prohibited the use of funds to subsidize Amtrak operating losses and required the
Secretary to take measures to ensure that projects are completed in 2 years.
ARRA also stipulated that projects shall supplement and not supplant planned
expenditures, and that not more than 60 percent of the funds for non-security
activities will be used for capital projects along the Northeast Corridor.

Federal Transit Administration
ARRA appropriated $8.4 billion for three major transit programs—funds that were
originally to be used only for capital projects. Of that amount,
   • $6.9 billion was appropriated for the Transit Capital Assistance Program (a
     combination of several programs as detailed below).
   • $750 million was appropriated for projects eligible under the Section 5309
     Fixed Guideway Modernization Program.
   • $750 million was appropriated for Capital Investment Grants, for major
     capital projects eligible under the Section 5309 New Starts/Small Starts
     program.
   • Less than 1 percent of the total funding of $8.4 billion ($64.3 million) is
     available to FTA for oversight and administration of the ARRA program.
     The $64.3 million is a combined amount deducted from the various
     programs before allocation.

Transit Capital Assistance
Of the $6.9 billion appropriated for the Transit Capital Assistance Program,
$100 million is reserved for the Transit Investments in Greenhouse Gas and
Energy Reduction (TIGGER). TIGGER is a new discretionary grant program for
public transportation projects that reduce a transit agency’s greenhouse gas
emissions or result in a decrease of a transit system’s energy use.

Exhibit B. Overview of DOT Programs Funded Under ARRA and Related
Requirements
                                                                               41



The remaining $6.8 billion was originally designated for capital expenses, even in
cases where the programs usually can use funds for operating expenses. On
June 24, 2009, President Obama signed the Supplemental Appropriations Act for
2009. This new law includes a provision allowing up to 10 percent of each ARRA
amount apportioned for the section 5307, section 5311, and section 5340 programs
to be used for operating assistance.

   • 80 percent ($5.44 billion) is available for section 5307 Urbanized Areas,
     defined as areas with a population over 50,000 as designated by the U.S.
     Bureau of the Census. Generally, section 5307 funds are for transit capital
     and operating assistance, but areas over 200,000 in population may not use
     5307 funds for operating assistance, except the ARRA funds designated in
     the Supplemental Appropriations Act for 2009. Funds are apportioned on
     the basis of legislative formulas, and the same formulas were used for
     ARRA.
   • 10 percent ($680 million) is available for section 5311 Non-Urbanized
     Areas. Section 5311 funds are distributed through states to non-urbanized
     areas—those with less than 50,000 in population. Funds may generally be
     used for transit capital, operating, or administrative assistance and are
     apportioned through statutory formula. The same formulas were used for
     ARRA.
      Of the $680 million, 2.5 percent ($17 million) was designated for the Tribal
      Transit program, a discretionary program for recognized Indian tribes
      through an annual national competitive process. Funds may be used for the
      same purposes as other section 5311 funds.
   • 10 percent ($680 million) is available for section 5340 Growing States and
     High Density States. The permitted uses and requirements of section 5340
     funds are the same as for the 5307 and 5311 funds to which they are added,
     and in its publication of apportioned ARRA funds, FTA combined the 5340
     amounts in the 5307 or 5311 allocation to each urbanized or non-urbanized
     area.

Fixed Guideway Infrastructure Investment
ARRA provided $750 million for the Fixed Guideway Modernization program—a
capital program for the modernization or improvement of existing fixed guideway
systems, which can include heavy rail, light rail, commuter rail, monorail,
trolleybus, aerial tramway, inclined plane, cable car, automated guideway transit,
ferryboats, portions of motor bus service operated on exclusive or controlled
rights-of-way, and high-occupancy-vehicle lanes.               FTA apportioned
$742.5 million ($750 million less 1.0 percent for oversight) to urbanized areas

Exhibit B. Overview of DOT Programs Funded Under ARRA and Related
Requirements
                                                                                                                  42


through the section 5309 Fixed Guideway Modernization program. This amount
was sufficient only for funds to be apportioned under the first four tiers of the
normal seven-tier statutory formula. Funds were allocated directly to 39 urbanized
areas that have fixed guideway transit systems with segments that are more than
seven years old and are at least one mile in length.

Capital Investment Grants
ARRA provided $750 million for Capital Investment Grants—major capital
projects eligible under the discretionary section 5309 New Starts/Small Starts
program. This program funds planned, implemented, and operated major capital
transit projects for assistance, consisting either of new systems or of extensions of
existing systems. FTA apportioned $742.5 million ($750 million less 1.0 percent
for oversight) for Capital Investment Grants. Per ARRA, priority was to be given
to projects that are currently in construction or able to obligate funds within 150
days of enactment. FTA apportioned these funds directly to 11 projects, based on
an analysis of construction schedules and cash flow needs of New Starts and Small
Starts projects currently under construction. The amounts allocated under the
ARRA program did not increase the total Federal investment in these projects, but
rather were substituted for section 5309 funds scheduled to be appropriated in
future years, in order to expedite project delivery.

Maritime Administration
Under ARRA, MARAD received $100 million for assistance to small shipyards—
commercial facilities that build, deliver, and/or repair vessels—for capital and
related infrastructure improvements. ARRA designated $98 million for grants and
up to $2 million for administering the Small Shipyards Grant Program. This
program provides financial assistance in the form of competitive grant funds to
small shipyards to facilitate the efficiency, operations, and quality of the domestic
ship construction and repair industry. 34 The program also provides grants for
training to enhance shipyard employees’ technical skills and to promote
operational productivity in communities with economies linked to the maritime
industry. Federal grant funds for a small shipyard project may not exceed
75 percent of the total cost. The remaining 25 percent must be matched by the
grant recipient, unless the Maritime Administrator determines that a project merits
a higher percentage of Federal financial assistance.

To be eligible for the program, small shipyards must employ 1,200 or fewer
production employees. The program also requires that no more than 25 percent of
the program’s funds be awarded to shipyard facilities with 601 to 1,200 production


34
     Without the approval of the Maritime Administrator, grant funds to small shipyards may not be used to construct
     physical facilities, such as buildings, or to acquire land.

Exhibit B. Overview of DOT Programs Funded Under ARRA and Related
Requirements
                                                                                 43


employees. In addition, the shipyard facility must be located in a single
geographic location that is in or near a maritime community.


Office of the Secretary of Transportation
ARRA provided the Office of the Secretary of Transportation (OST) $1.5 billion
in TIGER Discretionary Grants designated for transportation projects with a
significant national, metropolitan, or regional impact. According to ARRA,
eligible purposes include highway or bridge projects; public transportation
projects, including investments in projects participating in the New Starts or Small
Starts programs; passenger and freight rail transportation projects; and port
infrastructure investments, including projects that connect ports to other modes of
transportation and improve the efficiency of freight movement. OST can also
invest in projects that involve or benefit more than one mode.

Per ARRA, OST must select projects ranging from $20 to $300 million, with no
more than 20 percent provided to one state. ARRA also requires OST to equitably
distribute TIGER grants geographically. The Secretary can waive the $20 million
minimum project threshold for the purpose of funding significant projects in
smaller cities, regions, or states. The Federal share of project costs may be up to
100 percent, with priority given to projects that require Federal funding to
complete financing and will be completed within 3 years. Up to 0.1 percent of the
funds made available to OST may fund grant award and oversight and portions
may be transferred to other modal administrators.




Exhibit B. Overview of DOT Programs Funded Under ARRA and Related
Requirements
                                                                                                               44




EXHIBIT C. OVERVIEW OF THE OST TIGER TEAM
The Department created a Transportation Investment Generating Economic
Recovery (TIGER) team to coordinate its role in ARRA. The TIGER team
consists of approximately 60 officials from Operating Administrations and offices
and is co-chaired by the Deputy Assistant Secretary for Budget and Programs and
the Deputy Assistant Secretary for Transportation Policy. The team was tasked
with coordinating the Department’s ARRA role in (1) prioritizing transportation
investments, (2) rapidly distributing funds to state and local governments,
(3) providing transparency, and (4) monitoring funds distribution. Additionally,
the team was tasked with developing financial reporting standards, measuring
performance, managing risk, and reporting of job creation.

Initially, the TIGER team formed eight work groups to coordinate specific areas
and implemented a virtual intranet site to field and answer questions across the
Department, report critical deadlines, and share data. Each TIGER work group is
headed by an OST senior staff member and the group includes Departmental
issue-area experts. Subsequently, three groups were consolidated and another
group added. 35 The TIGER work groups and roles are as follows.

     • Communication Work Group: Coordinates ARRA announcements and
       events for the Department, such as coordinating press releases and various
       events related to the Department’s Recovery Act activities.

     • Executive Accountability Board:              Focuses on encouraging
       communication between the audit community and the Department,
       facilitating dissemination of information on best practices from OIG and
       GAO activity, expediting corrective actions, and providing a forum to
       ensure the audit community is aware of Departmental actions. The work
       group includes Department senior management and OIG and GAO staff.

     • Financial and Data Stewardship Work Group: Will (1) develop
       strategies for gathering and reporting ARRA information efficiently and
       unobtrusively, with attention to data quality and (2) serve as a forum for
       Departmental acquisition and grants officials to address issues, challenges,
       and best practices. A Grants Executive Board was also created to manage
       risk for the Department’s financial assistance programs and (3) serve as a
       forum for Departmental budget and finance staff to address challenges in
       fulfilling ARRA financial reporting requirements.
35
     The Data Consolidation, Financial Stewardship, and Financial Assistance work groups were consolidated into the
     Financial and Data Stewardship work group. Additionally, a new work group was added, the Hearings Work
     Group.


Exhibit C. Overview of the OST TIGER Team
                                                                              45



   • Geographic Information Systems Mapping Work Group: Coordinates
     efforts to use Geographic Information Systems (GIS) to map the
     Department’s ARRA project data on a publicly accessible website. The
     goal is to present project specific information at a variety of geographic
     levels, along with some summary descriptive information, and the status of
     each project.

   • Hearings Work Group:          Facilitates future congressional hearings that
     may arise under ARRA.

   • Informational Technology Work Group: Ensures all required
     Departmental ARRA information is publicly available online and complies
     with OMB specifications.

   • Jobs Reporting Work Group: Coordinates the Department’s response to
     ARRA section 1512 and 1201 job reporting requirements.

The TIGER team meets weekly to report on program-specific and working group
challenges, milestones, and deliverables. Further, the TIGER team co-chairs
submit weekly reports to the recovery.gov Web site, brief the Secretary on weekly
accomplishments, and work to ensure that all reporting deadlines in the OMB
guidance and from Congress are met.




Exhibit C. Overview of the OST TIGER Team
                                                                                 46



EXHIBIT D. “RED FLAG” INDICATORS FOR COMMON FRAUD
SCHEMES AND HOW TO REPORT SUSPECTED FRAUD
The following are brief descriptions of selected fraud schemes commonly seen on
transportation projects, along with sample “red flag” indicators for each scheme.
It is important to note that the presence of one or more indicators does not prove
fraud, nor are the indicators shown all inclusive for each of the schemes described.

Bid-rigging and Collusion
In bid-rigging and collusion schemes, contractors misrepresent the competition
against each other when, in fact, they agree to cooperate on the winning bid to
increase job profit. Watch for:

       • Unusual bid patterns—too close, too high, rounded numbers, or identical
         winning margins or percentages.
       • Different contractors making identical errors in contract bids.
       • Bid prices dropping when a new bidder enters the competition.
       • Rotation of winning bidders by job, type of work, or geographic area.
       • Losing bidders hired as subcontractors.
       • Apparent connections between bidders: common addresses, personnel, or
         phone numbers.
      • Losing bidders submitting identical line item bid amounts on nonstandard
        items.
Materials Overcharging
In materials overcharging schemes, a contractor misrepresents how much
construction material was used on the job and is then paid for excess material to
increase job profit. Watch for:

      • Discrepancies between contractor-provided quantity documentation and
        observed data, including yield calculations.
      • Refusal or inability to provide supporting documentation.
      • Contractor consistently loading job materials out of the view of project
        inspector.
      • Truck weight tickets or plant production records with altered or missing
        information.
      • Photocopies of quantity documentation where originals are expected.



Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and How To Report
Suspected Fraud
                                                                                    47


      • Irregularities in color or content of weight slips or other contractor
        documents used to calculate pay quantities.
Time Overcharging
In a time overcharging scheme, a consultant misrepresents the distribution of
employee labor on jobs in order to charge for more work hours or a higher
overhead rate, to increase profit. Watch for:

      • Unauthorized alterations to time cards and other source records.
      • Billed hours and dollars consistently at or near budgeted amounts.
      • Time cards filled out by supervisors, not by employees.
      • Photocopies of timecards where originals are expected.
      • Inconsistencies between a consultant’s labor distribution records and
        employee timecards.
Product Substitution
In product substitution schemes, a contractor misrepresents the product used in
order to reduce costs for construction materials. Watch for:

      • Any mismarking or mislabeling of products and materials.
      • Contractor restricting or avoiding inspection of goods or service upon
        delivery.
      • Contractor refusing to provide supporting documentation regarding
        production or manufacturing.
      • Photocopies of necessary certification, delivery, and production records
        where originals are expected.
      • Irregularities in signatures, dates, or quantities on delivery documents.
      • High rate of rejections, returns, or failures.
      • Test records reflect no failures or a high failure rate but contract is on
        time and profitable.
      • Unsigned certifications.
Disadvantaged Business Enterprises (DBE) Fraud
In disadvantaged business enterprises schemes, a contractor misrepresents who
performed contract work in order to appear to be in compliance with contract
goals for involvement of minority or women-owned businesses. Watch for:

      • Minority owner lacking background, expertise, or equipment to perform
        subcontract work.


Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and How To Report
Suspected Fraud
                                                                                  48


       • Employees shuttling back and forth between prime contractor and
         minority-owned business payrolls.
       • Business names on equipment and vehicles covered with paint or
         magnetic signs.
       • Orders and payment for necessary supplies made by individuals not
         employed by minority-owned business.
       • Prime contractor facilitated purchase of minority-owned business.
       • Minority-owned business owner never present at job site.
       • Prime contractor always uses the same minority-owned business.
Quality-Control Testing Fraud
In quality-control testing schemes, a contractor misrepresents the results of quality
control (QC) tests to falsely earn contract incentives or to avoid production
shutdown in order to increase profits or limit costs. Watch for:

       • Contractor employees regularly taking or labeling QC samples away from
         inspector oversight.
       • Contractor insisting on transporting QC samples from the construction
         site to the lab.
       • Contractor not maintaining QC samples for later quality assurance (QA)
         testing.
       • Contractor challenging results, or attempting to intimidate QA inspectors
         who obtain conflicting results.
       • Photocopies of QC test results where originals are expected.
       • Alterations or missing signatures on QC test results.
Bribery
In bribery schemes, a contractor compensates a government official to obtain a
contract or permit contract overcharges. Watch for:

       • Other government inspectors at the job site noticing a pattern of
         preferential contractor treatment.
       • Government official having a lifestyle exceeding his/her salary.
       • Contract change orders lacking sufficient justification.
       • Oversight officials socializing with or having business relationships with
         contractors or their families.



Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and How To Report
Suspected Fraud
                                                                                49


Kickbacks
In kickback schemes, a contractor or subcontractor misrepresents the cost of
performing work by secretly paying a fee for being awarded the contract and
therefore inflating job costs to the government. Watch for:

      • Unexplained or unreasonable limitations on the number of potential
        subcontractors contracted for bid or offer.
      • Continuing awards to subcontractors with poor performance records.
      • Non-award of subcontract to lowest bidder.
      • “No-value-added” technical specifications that dictate contract awards to
        particular companies.
Conflicts of Interest
In conflict of interest schemes, a contracting or oversight official has an
undisclosed financial interest in a contractor or consultant, resulting in improper
contract award or inflated costs. Watch for:

      • Unexplained or unusual favoritism shown to a particular contractor or
        consultant.
      • Government official disclosing confidential bid information to a
        contractor or assisting the contractor in preparing the bid.
      • Employee having discussions about employment with a current or
        prospective contractor or consultant.
      • Close socialization with and acceptance of inappropriate gifts, travel, or
        entertainment from a contractor.
      • Vendor or consultant address is incomplete or matching employee’s
        address.
      • Government official leasing or renting equipment to a contractor for
        performing contract work.

Reporting Concerns about Fraud, Waste, or Abuse
OIG maintains a Hotline to report allegations of fraud, waste, and abuse in DOT
programs or operations. Allegations may be reported by DOT employees,
contractors, or the public. The OIG Hotline is available 24 hours a day, 7 days a
week. Individuals who contact the Hotline, via telephone or letter, are not
required to identify themselves. However, persons who report allegations are
encouraged to identify themselves in the event additional questions arise as the
OIG evaluates or pursues their allegations.



Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and How To Report
Suspected Fraud
                                                                             50


Report suspicions and allegations of fraud, waste, and abuse to OIG by using one
of the following methods:

      • Online complaint form: www.oig.dot.gov/hotlineform.jsp
      • Telephone: (800) 424-9071
      • Fax: (540) 373-2090
      • E-mail: hotline@oig.dot.gov
      • Mail: DOT Inspector General
              P.O. Box 708
              Fredericksburg, VA 22404-0708




Exhibit D. “Red Flag” Indicators for Common Fraud Schemes and How To Report
Suspected Fraud
                                                                          51


EXHIBIT E. RELATED PRODUCTS AND ONGOING WORK

OIG Report Number MH-2010-002, “Status of Operating Administrations’
Processes to Conduct Limited Quality Reviews of Recovery Act Recipient Data,”
October 6, 2009.

OIG ARRA Advisory Number AA-2009-003, “ARRA Advisory – FAA’s Process
for Awarding ARRA Airport Improvement Program Grants,” August 6, 2009.

OIG ARRA Advisory Number AA-2009-002, “ARRA Advisory – Sampling of
Improper Payments in Major DOT Grants Programs Department of
Transportation,” June 22, 2009.

OIG ARRA Advisory Number AA-2009-001, “ARRA Advisory – DOT's
Suspension and Debarment Program,” May 18, 2009.

OIG Testimony Number CC-2009-062, “American Recovery and Reinvestment
Act: DOT’s Implementation Challenges and the OIG’s Strategy for Continued
Oversight of Funds and Programs,” April 30, 2009.

OIG Testimony Number CC-2009-058, “American Recovery and Reinvestment
Act: DOT’s Implementation Challenges and the OIG’s Strategy for Continued
Oversight of Funds and Programs,” April 29, 2009.

OIG Report Number MH-2009-046, “American Recovery and Reinvestment Act
of 2009: Oversight Challenges Facing the Department of Transportation,” March
31, 2009.

OIG Testimony Number CC-2009-045, “Top Management Challenges Facing the
Department of Transportation,” March 10, 2009.

In addition, we have a number of ongoing audits—undertaken before passage of
ARRA—that relate to the DOT programs that received additional funding in
ARRA. They are:

   • Audit of the Department’s Suspension and Debarment Program,

   • Audit of Use of Award Fee Contracts Within DOT,

   • Audit of AMTRAK’s 5-Year Capital Plan,

   • Assessment of FHWA Oversight Over Highway Bridge Program and
     National Bridge Inspection Program,

Exhibit E. Related Products and Ongoing Work
                                                                          52



   • Single Audit Oversight,

   • Financial Statement Audits for FY 2008/2009,

   • Audit of DOT’s Information Security Program and Practices for FY 2009,

   • Audit of Public Private Partnerships,

   • Audit of Improper Payment AIP Grants, and

   • Audit of FAA Oversight of Use of Airport Revenue—Denver International
     Airport.




Exhibit E. Related Products and Ongoing Work
                                                                                          53


APPENDIX. AGENCY COMMENTS

                     The Deputy Secretary of Transportation
                                 WASHINGTON, D.C. 20590



                                  November 16, 2009



MEMORANDUM TO:               Calvin L. Scovell III
                             Inspector General

FROM:                        John D. Porcari

SUBJECT:                     Management’s Comments on the Office of Inspector
                             General’s Draft Report: “DOT’s Implementation of the
                             American Recovery and Reinvestment Act: Continued
                             Management Attention is Needed to Address Oversight
                             Vulnerabilities”

  The Department has taken a proactive, hands-on approach to implementing the American
  Recovery and Reinvestment Act of 2009 (Recovery Act), which started in advance of its
  passage and has continued through its implementation to the current date. Before the law
  passed, we began planning, devising strategies, preparing systems, and creating new lines
  of communication. The Department recognized the urgency of the Nation's economic
  situation and the need for creative approaches to invest in our transportation
  infrastructure, to get people back to work, and to improve transportation safety and
  efficiency. We are dedicated to excellence in all aspects of this ambitious task.

  The actions the Department has taken to implement the Recovery Act, such as using new
  approaches like the TIGER team, amount to a paradigm shift. Of necessity, linear,
  sequential decision-making has given way to a fast-paced method of managing that
  proceeds along multiple tracks to meet short deadlines. Planning, documentation, and
  vetting often occur simultaneously.

  The Department's new responsibilities have placed additional challenges on the Office
  of Inspector General (OIG). It must now conduct its programmatic reviews in real
  time, while systems, approaches, and processes are still evolving. It must process
  information that quickly becomes outdated, sometimes in weeks or months.

  The Department is now more than 7 months into the implementation of the Recovery
  Act. As of November 12, 10,000 projects have been authorized by the Federal Highway
  Administration, Federal Transit Administration, Federal Aviation Administration, and the
  Maritime Administration. More than half are underway or completed. The Department
  has met or exceeded every statutory milestone set forth in the Recovery Act and has
  allocated virtually all of its funding, with the exception of some highway funds and


Appendix. Agency Comments
                                                                                               54


  grants yet to be issued in connection with the Federal Railroad Administration's (FRA)
  High Speed Intercity Passenger Rail (HSIPR) Program and the Secretary's TIGER
  Discretionary Grants Program. These last two programs were built from the ground up
  with unprecedented speed and are in full compliance with the requirements of the Act.

  The OIG draft report offers useful insights into some areas of success in the
  Department's implementation of the Recovery Act, and it also identifies others in need
  of attention, but it lacks sufficient focus on providing insights that are critical to the
  Department's continued success and further performance improvement. For example,
  the report notes that FRA has not yet finalized policies and procedures for all the
  subsequent phases of its new programmatic responsibilities. While this was known
  and understood by management, which is pursuing an expedited approach to program
  development and implementation, it is cited by the OIG draft report as a negative
  rather than recognizing it as an innovative approach and offering insights useful for
  achieving success. Similarly, the OIG draft report calls upon the Department to
  develop additional guidelines for programs, such as MARAD's Small Shipyards
  program, which may not receive additional funding in the future, and would therefore
  derive little benefit from this use of staff time. Nonetheless, we understand the basis
  for some of these recommendations, and appreciate their potential utility, and will
  provide a detailed action plan relating to the recommendations within 30 days of this
  memorandum. We look forward to future interactions with OIG that provide
  management with information more useful to achieving continued success moving
  forward.

  Recovery Act Project Selection In Compliance with Applicable Requirements

  The OIG draft report raises questions with regard to the selection of projects by MARAD
  and FAA. All grants awarded under their programs, however, were in full and complete
  accord with all applicable requirements, including all 70 grants issued by MARAD. Thus,
  the statement in the OIG's draft that "MARAD did not fully adhere to ARRA
  requirements" is inaccurate. While a process issue did arise, OST's effective oversight
  identified and resolved the issue, and OST ensured that all grant recipients were
  appropriately selected and complied with the requirements of the Act.

  With regard to FAA, we note that the draft report continues to assert the OIG's
  disagreement with a handful of the 330 projects selected to receive Recovery Act funding
  under the Grants in Aid to Airports Program (AIP). Early in the draft, OIG raises
  concerns whether this subset of projects indeed constituted the highest priority and
  whether they were capable of generating long-term economic benefits. Several pages
  later, however, the draft report asserts in broad strokes that FAA's processes for awarding
  and overseeing Recovery Act grants for AIP projects do not comply with the
  requirements. The chain of logic that would connect the draft report's specific concerns
  with a small subset of projects to a sweeping assertion of general noncompliance is not
  clear.

  FAA will work with OIG to explore the basis for and rationale behind OIG's concerns.
  The Department, however, continues to maintain the same position it took in response to


Appendix. Agency Comments
                                                                                           55


  the OIG's ARRA Advisory on the topic, i.e., that the FAA carefully ensured that each
  grant issued using Recovery Act funds fully complied with all statutory requirements.
  (see http://www.dot.gov/recovery/docs/ARRAAdvisoryAIPresponse.pdf/) Moreover, we
  note that the FAA implemented detailed procedures with explicit internal controls on all
  project selections. We are confident that a detailed review of the AIP selections, with full
  consideration of all applicable criteria, will reveal that FAA's selections were appropriate
  and in compliance with statutory direction and executive branch guidance.

  DOT Implemented Extraordinary Oversight Measures

  The Department has recognized the need for extraordinary oversight measures to
  ensure that the Recovery Act's expectations are fulfilled. In this regard, the OST Office
  of Financial Management created an innovative and rigorous adaptation of the A-123
  process to identify and assess risks, to identify and implement mitigating actions, and to
  test their effectiveness.

  This detailed and rigorous process depends on a combination of resources drawn from
  both OST and the operating administrations, and the oversight is proceeding as planned.
  The OST meets each month with the staff of the operating administration to discuss risk
  mitigation efforts and review their documentation. As a result of these ongoing
  discussions, the operating administrations have revised their A -123 documentation,
  which now consists of narratives, risk assessments, and business procedures to verify the
  adequacy of controls in specific Recovery Act funded programs. In addition, the
  Department has tested a sample of Recovery Act transactions to verify the adequacy and
  accuracy of these controls. Consequently, the draft report's discussion of issues
  involving our risk management program is now 3 months out of date, and is not reflective
  of its current status.

  The operating administrations also have heightened their oversight activities. The
  FHWA for example, has established National Review Teams to review specific
  transactions in each State. The teams use a standardized national protocol, and have been
  conducting State by State reviews for months. Another mode, the FTA, is also increasing
  and expanding its oversight activities related to Recovery Act funding. It is now focusing
  on at-risk grantees regardless of their size and has stepped up its review of grantees'
  financial and project management. The FAA also has added resources to its oversight
  efforts and will be conducting specific on-the-ground oversight of all Recovery Act
  projects. Similarly, MARAD plans to conduct site visits to monitor the progress of its
  grantees. All these actions have been implemented to ensure that funds provided under
  the Recovery Act are used appropriately, as intended, and to maximum benefit.

  DOT Will Continue to Provide Appropriate Staffing and Effective Oversight of
  Recovery Act Programs

  Implementing the Recovery Act has required extraordinary effort and ingenuity on the
  part of DOT's management and staff. Staff throughout the Department have stepped
  forward to ensure that DOT sets the standard for accomplishing its Recovery Act
  initiatives. Sustaining these efforts over the longer term, however, will require properly


Appendix. Agency Comments
                                                                                              56


  allocated resources, and to that end most of the operating administrations have completed
  a workforce analysis. To ensure the adequacy of these workforce plans in meeting future
  demands, I have asked the Department's Director of Human Resources to work with the
  Human Resource offices throughout the Department to ensure that their workforces are
  sufficient to meet expectations.

  With regard to the additional staffing obligations suddenly imposed on DOT by the
  Recovery Act, the OIG's draft report ignores the context in which this situation occurred.
  As noted earlier in this response, Recovery Act timeframes did not provide the luxury of
  sequential analysis. Congress provided specific statutory milestones, and agencies were
  expected to move quickly and effectively to implement this important law and get
  Americans back to work.

  The DOT can take enormous pride in the manner in which it stepped up to the task. The
  Department primarily relied upon the resources it had on hand to implement the
  Recovery Act and to meet all statutory deadlines. Moreover, DOT was the first
  department in the Federal government to request and receive direct authority to hire and
  rehire annuitants to fill critical skilled positions quickly. Third, the various modes
  cooperated with one another, and offered their specialized experts across organizational
  lines. Finally, to the extent that additional resources were needed, particularly on a surge
  basis, DOT used its expertise in contracting to obtain the necessary personnel.

  DOT Quickly Implemented Major New Programs

  Under the Recovery Act, DOT was required to create three new programs: the
  Secretary's Supplemental Discretionary Grants for a National Surface Transportation
  System Program, otherwise known as the TIGER Grants Program, FRA's-High Speed
  Intercity Passenger Rail (HSIPR) Program, and FTA's Transit Investments for
  Greenhouse Gas and Energy Reduction (TIGGER) program. For the reasons described
  above, each program was designed with unprecedented speed.

  The Government Accountability Office (GAO) praised the TIGER Grant program for the
  quality of its framework and decision criteria. Specifically, a report issued on June 30,
  2009, 36 found that DOT had generally adhered to key requirements for communicating
  important elements associated with funding opportunities and awarding grants that
  support economic recovery and transportation infrastructure, all while complying with
  Recovery Act requirements. The GAO report further stated that the program had
  provided among other things, a full description of the basis to award grants, including
  information on all criteria and sub-criteria, and the weights of the various factors, if they
  differed in importance.

  It is difficult to reconcile the GAO's positive review with the vague concerns expressed
  in the OIG draft that the Department's need to meet statutory requirements for
  geographic dispersion could result in the selection of noncompetitive projects. We agree
  with the GAO report's finding that the “selection criteria established for the program

  36
   “Recovery Act: The Department of Transportation Followed Key Federal Requirements in
  Developing Selection Criteria for its Supplemental Discretionary Grants Program,” GAO-09-785R


Appendix. Agency Comments
                                                                                           57


  support a framework for merit-based spending of Recovery Act funds,” and believe that
  the issues described in the OIG draft are speculative and without firm foundation.
  The FRA also made a virtue of necessity and accomplished an enormous amount in a
  brief period of time. Using internal resources, along with assistance from subject matter
  experts from other operating administrations as well as from the Volpe Center in Boston,
  FRA developed an implementation strategy for the HSIPR Program that used a parallel,
  phased approach. Over the last few months the FRA has achieved goals that could have
  taken years in the past. These include issuing a draft strategic plan for high speed rail,
  reaching out to stakeholders through various forums, creating and releasing interim
  program guidance, creating an application process for grants and an evaluation method,
  and most recently, executing a full scale review of the applications. FRA's continued
  success is contingent on many factors including obtaining the additional resources for its
  resource planning efforts to sustain and manage the program, as described in the Fiscal
  Year 2010 President's Budget.

  Equally impressive is the manner in which FTA quickly assembled an implementation
  and evaluation team to address the requirements of the TIGGER discretionary grant
  program. This program is intended to provide funding for projects that reduce energy
  usage by transit systems and greenhouse gas emissions. Implementation and evaluation
  efforts were completed with unusual alacrity. The FTA announced availability of
  funding for the TIGGER program in March, solicited a request for competitive proposals
  and received responses valued at over $2 billion by May. By mid-October, these
  proposals were evaluated, selections were completed, and 43 transit systems received
  grants totaling $100 million, which was the entire appropriation.

  DOT Seeks to Provide Reasonable Jobs Estimates with a Strong Methodological
  Basis

  Identifying and tracking the job creation associated with program spending is a new
  responsibility for DOT and for the entire government. As such, it represents uncharted
  territory that would benefit from an ongoing and detailed dialogue between the
  Department and the OIG.

  Early in the Executive Branch's implementation of the Recovery Act, efforts were
  initiated to create a single governmentwide set of guidelines for completing estimates of
  job creation and retention. These were abandoned as OMB recognized that the
  differences between agency programs and the economic sectors in which they operate
  required the use of sector-specific measurements tailored to individual agency programs
  and the particular kinds of jobs they will create, even at the risk of creating
  inconsistencies in approach.

  OST faced an analogous situation, and the Department's chief economist, after working
  with the operating administrations, determined that different measures which are specific
  to individual programs and industries would be more useful than a general discussion of
  data quality and a single set of guidelines that would apply equally to all modes. His
  assessment was informed by the expert judgments of senior staff at the Bureau of
  Transportation Statistics.


Appendix. Agency Comments
                                                                                            58


  The OIG draft report takes issue with his approach, but offers no alternatives that may
  prove more accurate or appropriate. The draft report also criticizes OST for not
  providing guidance as to how to categorize different types of direct employment. The
  reason for this concern is unclear. There is no need to “categorize different types of
  direct employment” in order to calculate job numbers, and it is not clear how such
  categorization would affect the Department's calculation of indirect employment.
  Further, the report inaccurately states that DOT is waiting for a contractor to provide
  guidance on categorizing the different types of direct employment. Rather, DOT has
  been working with a contractor to categorize different types of output and to develop
  methods of estimating indirect jobs for each different type of output. That work was
  recently completed.

  The OIG draft report also lacks precision in addressing the issue of consistency with
  respect to the methods used by DOT to calculate indirect job generation and those used
  by the Council of Economic Advisers (CEA). The CEA's approach is based on a
  model that uses the same rule of thumb for many types of public expenditures, whether
  they are schools, windmills, or buses. The DOT's input-output model analyzes each
  type of expenditure separately.

  It is important for the OIG draft report to recognize that both methods -- DOT's and
  CEA's -- are based on estimates; each is more sophisticated in some areas and less so in
  others. It is not accurate, however, for the OIG's report to state that the Department, in
  using a methodology specifically tailored to different types of expenditures, will generate
  estimates of indirect employment that lack credibility. Finally, the draft report identifies
  a concern with the lag in timing for reporting on job creation. While we understand the
  preference to report on jobs as they occur, the data and systems that would permit real
  time reporting do not exist.

  In closing, we realize that a cornerstone of the Department's success in implementing the
  Recovery Act will be meaningful and effective communication between OIG and
  management. We have begun to find new ways to enhance that communication, such as
  joint participation in the Accountability Stewardship Group of the TIGER Team. We
  envision further refinements in this and similar forums to aid in the rapid exchange of
  information on important management issues. For example, these forums could provide
  an effective venue to convey information on number, type, and status of ongoing and
  completed OIG Recovery Act investigations. This information could allow management
  to identify trends and take actions to address vulnerabilities more quickly than using
  traditional after-the-fact reporting methods.

  Finding new and innovative ways to work effectively together, to identify problems, and
  to implement solutions will better enable the Department function more effectively in this
  new environment -- one where actions that used to require years are done in months, and
  those that took months are completed in days.




Appendix. Agency Comments
